<html>
<title> - THE FUTURE OF THE TRANSPORTATION SECURITY ADMINISTRATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        THE FUTURE OF THE TRANSPORTATION SECURITY ADMINISTRATION

=======================================================================

                                 HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                          PROTECTIVE SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2017

                               __________

                            Serial No. 115-1

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                   U.S. GOVERNMENT PUBLISHING OFFICE                    
26-395 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dabdaab59ab9afa9aeb2bfb6aaf4b9b5b7f4">[email&#160;protected]</a> 




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
John Katko, New York                 Bonnie Watson Coleman, New Jersey
Will Hurd, Texas                     Kathleen M. Rice, New York
Martha McSally, Arizona              J. Luis Correa, California
John Ratcliffe, Texas                Val Butler Demings, Florida
Daniel M. Donovan, Jr., New York     Nanette Diaz Barragan, California
Mike Gallagher, Wisconsin
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

         SUBCOMMITTEE ON TRANSPORTATION AND PROTECTIVE SECURITY

                     John Katko, New York, Chairman
Peter T. King, New York              Bonnie Watson Coleman, New Jersey
Mike Rogers, Alabama                 William R. Keating, Massachusetts
Clay Higgins, Louisiana              Donald M. Payne, Jr., New Jersey
Brian K. Fitzpatrick, Pennsylvania   Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Krista P. Harvey, Subcommittee Staff Director
         Cedric C. Haynes, Minority Subcommittee Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Chairman, Subcommittee on Transportation 
  and Protective Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bonnie Watson Coleman, a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Transportation and Protective Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Roger Dow, CEO, U.S. Travel Association:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Ms. Nina E. Brooks, Head of Security, Airports Council 
  International:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19
Mr. J. David Cox, Sr., National President, American Federation of 
  Government Employees:
  Oral Statement.................................................    25
  Prepared Statement.............................................    26

                                Appendix

Questions From Honorable Brian Fitzpatrick for Roger Dow.........    45
Question From Honorable Brian Fitzpatrick for Nina E. Brooks.....    46

 
        THE FUTURE OF THE TRANSPORTATION SECURITY ADMINISTRATION

                              ----------                              


                       Thursday, February 2, 2017

             U.S. House of Representatives,
                Subcommittee on Transportation and 
                               Protective Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. John Katko [Chairman 
of the subcommittee] presiding.
    Present: Representatives Katko, Higgins, Watson Coleman, 
Keating, and Payne.
    Also present: Representative Jackson Lee.
    Mr. Katko. The Committee on Homeland Security, Subcommittee 
on Transportation and Protective Security will come to order. 
Before I commence with my statement, I do want to note for the 
record how happy I am to have Mrs. Watson Coleman as my new 
Ranking Chair on this.
    We have a very good working relationship, as well we 
should. I think it is something more people in Congress could 
try and do. We are going to endeavor to do that going forward.
    So Mrs. Watson Coleman, welcome, and thank you for being on 
the committee with me.
    Mrs. Watson Coleman. Thank you. Delighted to be here with 
you.
    Mr. Katko. Thank you for being here as well, Mr. Payne. 
There are others in the committee. They have some conflicts, so 
may be coming in and out, but we will deal with that as we move 
forward.
    The subcommittee is meeting today to examine how TSA can 
better achieve its mission to secure transportation systems 
across the United States. In addition, the hearing will cover 
opportunities for TSA to improve, as it relates to 
technological advances and communications, for the State, 
local, and private-sector partners.
    I now recognize myself for an opening statement. I would 
like to welcome everyone to the Subcommittee on Transportation 
and Protective Security's first hearing of the 115th Congress, 
which gave us added responsibilities to have oversight of the 
Secret Service as well as TSA. So, we kind-of doubled our 
workload here, much to the chagrin of my staff.
    I am grateful to my constituents for giving me the 
opportunity and privilege to return to Congress and continue to 
Chair this important subcommittee. This committee has a proven 
track record of working together to advance long-term, common-
sense, and strategic reforms to the Department of Homeland 
Security.
    While there may be divisions and discord elsewhere, here in 
this room, we all share an unshakable commitment to ensuring 
the security of the traveling public, because we know that the 
consequences of failure are just too great.
    The Transportation Security Administration was founded just 
weeks after 9/11. Congress did what it does best. It reacted to 
a crisis, and unfortunately threw a lot of money at it without 
sometimes thinking about the overall structure.
    Here we are nearly 16 years later. The American taxpayer 
has spent billions of dollars. It is clear that TSA is long 
overdue for an overhaul. The agency has been plagued with 
uncertainty and a lack of consistent leadership. Since 2014, 
TSA has had 6 different administrators leading the agency--6.
    While we have been able to advance legislation to address 
many of the challenges that TSA faces, it is incumbent upon us 
to provide clearer direction and intent for this often-troubled 
agency in the form of a full-scale reauthorization, and find a 
way to limit the revolving door of leadership.
    Without continuity at the top, it is impossible for any 
organization to successfully implement a long-term strategic 
vision. Instead, we have all been left with the many fits and 
starts of the last few years.
    I have juxtaposed that with, for example, the FBI, an 
agency where the director is there for a 10-year term and how 
the stability really helps moving forward.
    Under former Administrator Neffenger, TSA began to move in 
the right direction. A new training and education program was 
put into place for all front-line employees.
    Emphasis was placed on engagement with the private sector. 
TSA launched an innovation task force to seek out new 
technologies. All of these things had a very positive effect on 
morale, at least to some extent.
    While these were important first steps, they did not go far 
enough, and now many of these potentially transformative 
initiatives are left to languish or disappear altogether with 
yet another change in leadership when the President names a new 
administrator.
    It would be wise for the new administrator to continue to 
build upon many of these positive changes initiated by Admiral 
Neffenger.
    When confirmed, he or she will have an eager partner in the 
subcommittee to help garner Congressional support for reform 
and improvement within the agency. Over the last few years, we 
saw record-breaking numbers of Americans traveling. 
Unfortunately, TSA was at times ill-prepared for the volume of 
travelers and was caught flat-footed.
    At the height of the wait-time crisis last summer, news 
coverage around the country showed passengers stranded at 
airports overnight due to long TSA wait lines, sleeping on cots 
or on the floor. The number of passengers will continue to 
increase. We must ensure TSA is prepared to effectively and 
efficiently screen passengers.
    Simultaneously, TSA must focus on working with its State 
and local partners to keep all areas of our airports safe and 
secure. This issue was front and center on January 7 when a 
disturbed individual opened fire in the baggage claim area at 
the Hollywood-Fort Lauderdale International Airport, resulting 
in the loss of 5 lives and scores of injuries.
    Air traffic was brought to a halt as law enforcement 
officials and first responders rushed to contain the situation. 
This tragic incident served as a stark reminder of the threats 
facing our Nation's aviation system.
    Although TSA is one of the youngest agencies in the Federal 
Government, it has come to operate as an entrenched Federal 
bureaucracy. This means that oftentimes it fails to achieve 
important efficiencies. It lacks the flexibility to respond to 
an ever-changing threat landscape.
    I believe, that with the start of this new administration 
we have a unique opportunity to effect positive change at TSA. 
The purpose of our hearing today is to look forward--not 
backwards, forward.
    We will hear from the many willing and ready partners TSA 
has to help inform us what innovations and efficiencies TSA 
could better leverage to enhance its ability to achieve its 
critical mission.
    The private sector is a primary engine of innovation and 
efficiency in the U.S. economy. The Department of Homeland 
Security and TSA must look to them for best practices and new 
technologies that can simultaneously improve aviation security 
and passenger experience.
    I look forward to hearing from all of our witnesses today 
on the specific reforms necessary to advance TSA and make the 
traveling public safer.
    [The statement of Chairman Katko follows:]
                    Statement of Chairman John Katko
                            February 2, 2017
    I would like to welcome everyone to the Subcommittee on 
Transportation and Protective Security's first hearing of the 115th 
Congress. I am grateful to my constituents for giving me the 
opportunity and privilege to return to Congress and continue to chair 
this important subcommittee. This committee has a proven track record 
of working together to advance long-term, common-sense strategic 
reforms to the Department of Homeland Security. While there may be 
divisions and discord elsewhere, here in this room, we all share an 
unshakable commitment to ensuring the security of the traveling public, 
because we know that the consequences of failure are too great.
    The Transportation Security Administration was founded just weeks 
after 9/11. Congress did what it does best--it reacted to a crisis and 
threw money at a problem. Here we are nearly 16 years later, the 
American taxpayer has spent billions of dollars, and it is clear that 
TSA is long overdue for an overhaul. The agency has long been plagued 
with uncertainty and a lack of leadership. Since 2014, TSA has had 6 
different administrators leading the agency. While we have been able to 
advance legislation to address many of the challenges that TSA faces, 
it is incumbent upon us to provide clearer direction and intent for 
this often troubled agency in the form of a full-scale reauthorization, 
and find a way to limit the revolving door of leadership. Without 
continuity at the top, it is impossible for any organization to 
successfully implement a long-term strategic vision. Instead, we have 
all been left with the many fits and starts of the last few years.
    Under former Administrator Neffenger, TSA began to move in the 
right direction. A new training and education program was put into 
place for all front-line employees, emphasis was placed on engagement 
with the private sector, and TSA launched an Innovation Task Force to 
seek out new technologies. While these were important first steps, they 
did not go far enough, and now many of these potentially transformative 
initiatives are left to languish or disappear altogether with yet 
another change in leadership when the President names a new 
administrator. It would be wise for the new administrator to continue 
to build upon many of these positive changes initiated by Admiral 
Neffenger. When confirmed, he or she will have an eager partner in this 
subcommittee, to help garner Congressional support for reform and 
improvement within the agency.
    Over the last year, we saw record-breaking numbers of Americans 
traveling; unfortunately TSA was ill-prepared for the volume of 
travelers and was caught flat-footed. At the height of the wait times 
crisis, news coverage around the country showed passengers, stranded at 
airports overnight due to long TSA wait lines, sleeping on cots. The 
number of passengers will continue to increase, and we must ensure TSA 
is prepared to effectively and efficiently screen passengers.
    Simultaneously, TSA must focus on working with its State and local 
partners to keep all areas of our airports safe and secure. This issue 
was front and center on January 7, when a disturbed individual opened 
fire in the baggage claim area at the Hollywood-Fort Lauderdale 
International Airport. The incident resulted in the loss of 5 lives and 
scores of injuries. Air traffic was brought to a halt as law 
enforcement officials and first responders rushed to contain the 
situation. This tragic incident served as a stark reminder of the 
threats facing our Nation's aviation system.
    Although TSA is one of the youngest agencies in the Federal 
Government, it has come to operate as an entrenched Federal 
bureaucracy. This means that often times it fails to achieve important 
efficiencies, and it lacks the flexibility to respond to an ever-
changing threat landscape. I believe that with the start of this new 
administration, we have a unique opportunity to affect positive change 
at TSA.
    The purpose of our hearing today is to look forward. We will hear 
from the many willing and ready partners TSA has to help inform us what 
innovations and efficiencies TSA could better leverage to enhance its 
ability to achieve its critical mission. The private sector is the 
primary engine of innovation and efficiency in the U.S. economy. The 
Department of Homeland Security and TSA must look to them for best 
practices and new technologies that can simultaneously improve aviation 
security and passenger experience. I look forward to hearing from all 
of our witnesses today, on the specific reforms necessary to advance 
TSA and make the traveling public safer.
    I would like to thank all of you for being here today and with 
that, I am pleased to recognize the new Ranking Member of the 
subcommittee, the gentlelady from New Jersey, Ms. Watson Coleman, for 
her opening statement.

    Mr. Katko. With that, I am pleased to recognize the new 
Ranking Member of the subcommittee, the gentlelady from New 
Jersey, Mrs. Watson Coleman, for her opening statement.
    Mrs. Watson Coleman. Thank you, Chairman Katko. I really do 
appreciate this opportunity to work with you. I look forward to 
working in a bipartisan way to ensure that we have efficiency, 
effectiveness, and a robust traveling economy that benefits 
from the things that we shall do together.
    I want to thank you for convening this hearing. At the 
outset, let me say that I am looking forward to working with 
the Transportation and Protective Security Committee to address 
those challenges within all modes of transportation.
    The Transportation Security Administration as well as 
airlines, airports, and other stakeholders have experienced 
major challenges recently in regard to aviation security. While 
there have been many lessons learned and improvements made to 
aviation security, there is much to be done in this area.
    Mr. Dow. I understand that the U.S. Travel Association has 
taken time to produce a plan for the future of aviation 
security. I look forward to hearing your perspective on how we 
can enhance security while facilitating an efficient experience 
for travelers.
    I also look forward to your perspective on ensuring that 
the aviation security fee, which is currently diverted to 
offsetting the deficit, is utilized as a resource for enhancing 
aviation security, the purpose for which it was originally 
introduced.
    Ms. Brooks, I look forward to hearing the perspective of 
aviation security stakeholders around the world through your 
expertise as head of security for Airports Council 
International. Aviation security is a global issue. Your 
exposure to technology and diverse security policies through 
the Smart Security initiative will add great value to this 
hearing.
    President Cox, I thank you for being here today. In 2016, 
TSOs screened more than 738 million passengers, 466 million 
checked bags, and discovered more than 3,300 firearms in carry-
on bags.
    However, when issues arise at the Nation's checkpoints, 
such as lengthy wait times associated with the recent peak 
travel season or reported high failure rates from covert 
testing, transportation security officials usually bear the 
brunt of the traveling public's frustrations.
    Eventually, we learned that a multitude of factors can 
contribute to these issues, including, but not limited to, 
technology, policies, and management, not just transportation 
security officers.
    I thank TSOs for working day in and day out to ensure that 
no weapon or person with ill intent is able to harm us via our 
commercial aviation system. I look forward to your testimony 
about disparities between the rights of these Federal employees 
in comparison to those in the other workforce.
    As we discuss the future of TSA and transportation 
security, we cannot leave out the perspectives of those that 
you represent. I also believe that this subcommittee must 
convene a hearing on this topic that also includes the 
perspective of the agency whose future we are discussing, the 
Transportation Security Administration.
    Last, year after year, the funding for the aviation sector 
is multiples higher than the funding for the surface sector. My 
district has extensive rail infrastructure, including Amtrak's 
Northeast Corridor, as well as both freight and commuter trains 
that run through it and are extremely important to my 
constituents.
    Given the attacks on trains in Brussels, in which a metro 
train was the subject of a bombing that killed and injured 
travelers, as well as the attempted attack on a high-speed 
train traveling from Amsterdam to Paris, we must ensure that 
discussions of the future of TSA and transportation security 
also incorporate other modes of transportation, Mr. Chairman. I 
look forward to engaging in those opportunities with you.
    Those who wish to do American citizens harm will continue 
to attempt to exploit soft targets. We must shore up 
vulnerabilities that exist throughout all transportation 
systems.
    Once again, I thank all witnesses for appearing before us 
today and look forward to your testimony.
    With that, I yield back the balance of my time, Mr. 
Chairman.
    [The statement of Ranking Member Watson Coleman follows:]
           Statement of Ranking Member Bonnie Watson Coleman
                            February 2, 2017
    The Transportation Security Administration, as well as airports, 
airlines, and other stakeholders, have experienced major challenges 
recently in regard to aviation security.
    While there have been many lessons learned and improvements made to 
aviation security, there is much left to be done in this area.
    Mr. Dow, I understand that the U.S. Travel Association has taken 
time to produce a plan for the future of aviation security, and I look 
forward to hearing your perspective on how we can enhance security 
while facilitating an efficient experience for travelers. I also look 
forward to your perspective on ensuring that the aviation security fee, 
which is currently diverted to offsetting the deficit, is utilized as a 
resource for enhancing aviation security--the purpose for which it was 
originally intended.
    Ms. Brooks, I look forward to hearing the perspective of aviation 
security stakeholders around the world through your expertise as head 
of security for Airports Council International. Aviation security is a 
global issue, and your exposure to technology and diverse security 
policies through the Smart Security initiative will add great value to 
this hearing.
    President Cox, I thank you for being here today.
    In 2016, Transportation Security Officers (TSOs) screened more than 
738 million passengers, 466 million checked bags, and discovered more 
than 3,300 firearms in carry-on bags.
    However, when issues arise at the Nation's checkpoints, such as 
lengthy wait times associated with the recent peak travel season, or 
reported high failure rates from covert testing, transportation 
security officers usually bear the brunt of the traveling public's 
frustrations.
    Eventually we learned that a multitude of factors can contribute to 
these issues, including, but not limited to technology, policies, and 
management--not just transportation security officers.
    I thank TSOs for working day in and day out to ensure that no 
weapon or person with ill intent is able to harm us via our commercial 
aviation system.
    I look forward to your testimony about disparities between the 
rights of these Federal workers in comparison to those of other Federal 
workers. As we discuss the future of TSA and transportation security, 
we cannot leave out the perspectives of those that you represent.
    I also believe that this subcommittee MUST convene a hearing on 
this topic that also includes the perspective of the agency whose 
future we are discussing, the Transportation Security Administration. 
Lastly, year after year, the funding for the aviation sector is 
multiples higher than the funding for the surface sector.
    My district has extensive rail infrastructure, including Amtrak's 
Northeast Corridor, as well as both freight and commuter trains that 
run through it and are extremely important to my constituents.
    Given the attacks on trains in Brussels, in which a metro train was 
the subject of a bombing that killed and injured travelers, as well as 
the attempted attack on a high-speed train travelling from Amsterdam to 
Paris, we must ensure that discussions of the future of TSA and 
transportation security also incorporate other modes of transportation.
    Those who wish to do American citizens harm will continue to 
attempt to exploit soft targets, and we must shore up vulnerabilities 
that exist throughout our transportation systems.

    Mr. Katko. Thank you, Mrs. Watson Coleman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                            February 2, 2017
    The Transportation Security Administration is essential to our 
Nation's security.
    I believe that this committee, particularly this subcommittee 
should work in a bipartisan fashion to achieve the shared goal of 
advancing TSA.
    However, we cannot discuss TSA's future without hearing from the 
agency. It is my hope that after confirmation of a TSA administrator, 
this subcommittee will hold a hearing to receive the administrator's 
vision for the agency.
    When we discuss TSA and its future, it is imperative that we give 
attention to its workforce.
    Contrary to statements made by the President--TSA is not a 
``disaster'' and has not been on the brink of ``falling apart''.
    Unfortunately, the President has used his public platform to 
disparage TSA employees, many of whom are TSOs, Federal workers who are 
at the front line of aviation security.
    The President's irresponsible and baseless statements about the 
component, which is already plagued with low morale, demoralizes a work 
force who work day in and day out but do not receive the compensation 
and benefits of other Federal employees.
    I am introducing a bill that will give the TSOs the same rights as 
Federal employees. As we consider options for improving TSA, I urge 
both Congress and the administration to look for viable solutions that 
actually improve security.
    I know some of my colleagues across the aisle believe that putting 
aviation security in the hands of contractors is a viable solution for 
TSA.
    I disagree. Our Nation's aviation security should not be for sale.
    The pre-9/11 model of having a privatized screening workforce, is 
not an option that can improve security. Instead, it puts security 
directly in the hands of the best bidder.
    When it comes to our Nation's security, we cannot operate off of 
the best deal.
    Instead we have to explore solutions, including improving 
technological advancements. TSA needs technologies that address the 
threats of tomorrow, instead of the threats from yesterday.
    TSA also needs to ensure that it engages with the small business 
community to ensure that those businesses with ideas and technologies 
to improve security are not left out just because of their size.

    Mr. Katko. We are very pleased to have a distinguished 
panel here to testify before us today on this very important 
topic. The idea of having you here is to hear from you the 
concerns you have before we find out who the new administrator 
is so that when an administrator gets here he will know that we 
have a game plan as to what we would like to do to help them 
address some of their issues.
    Our first witness, Mr. Roger Dow, serves as the president 
and chief executive officer for the U.S. Travel Association. 
Prior to joining U.S. Travel in 2005, Mr. Dow had a 34-year 
career at Marriott International. Most notably, Mr. Dow served 
in the United States Army with the 101st Airborne Division in 
Vietnam, where he received the Bronze Star and other citations.
    That is something I think about often these days as my son 
is beginning his career in the Army in the infantry after 
graduating from college as an officer. So I will be swearing 
him into the Army as an officer in May. That is going to be a 
high honor for me, but also high fear, as you might imagine.
    Our second witness, Ms. Nina Brooks, has been the head of 
security at Airports Council International in Montreal since 
2015. She has worked in the aviation industry for many years 
and started her aviation career at Virgin Atlantic Airways.
    In addition to her current role, Ms. Brooks also teaches 
aviation security at McGill University, a truly fine 
institution, and is a member of the editorial board of Aviation 
Security International.
    I am hoping at some point she invites me up to Montreal to 
see a hockey game because I am a hockey nut. So I would be 
happy to come up.
    Our third witness is Mr. Cox, J. David Cox, the national 
president of American Federation of Government Employees, whom 
we know well. Mr. Cox was first elected president of AFGE in 
August 2012 and was re-elected to a second 3-year term in 
August 2015.
    I have had many conversations with your group. I always 
find it fruitful, productive, and helpful. So I applaud you for 
that, and thank you all for being here today.
    I now recognize Mr. Dow for his opening statement.

      STATEMENT OF ROGER DOW, CEO, U.S. TRAVEL ASSOCIATION

    Mr. Dow. Thank you, Chairman Katko. Thanks to your son for 
what he is about to do.
    Ranking Member Watson Coleman, I am a Jersey boy. So I grew 
up in Jersey, so my heart is there, and good to be with you.
    Members of the committee, I thank you for allowing this 
testimony.
    I am talking on behalf of U.S. Travel, which represents the 
entire of the travel industry, which is $2.1 trillion of our 
economy and 15.1 million jobs, 1 in 9 jobs. Our mission is 
simple, to get more people traveling to the United States and 
within the United States.
    We have been driving the National discussion on aviation 
security and traveler security for a decade now and have worked 
with every one of the administrators, and look forward to 
working with the next administrator.
    We have a belief that greater security and increased travel 
are mutually compatible goals. I also believe that without 
security there is no travel, period. So this is why this is so 
important.
    Five years ago, we made a recommendation to the TSA of 
several points that we believed could take place. Last month, 
we issued an update of that report. I was pleased that the 
Chairman was with us as we rolled it out.
    Also with us was Member Keating. It was an event at Roll 
Call where we talked about items that I will get to that can 
really make a difference here. It is very important with a new 
Congress and the dawn of a new administration that we really 
make sure that we are doing the right thing for the safety of 
Americans.
    We are pleased to offer many policy recommendations here. 
We are going to suggest a new series of reforms that we think 
are very important to give the American people the best return 
on the investment that we are making in our country's security 
at the airports.
    We recognize TSA has a mission that is critical to detect 
and deter any threats, and the challenge that you mentioned, 
Mr. Chairman, of the 750 million people that go through 
airports every year. It is complex. It is expensive. It is 
extremely important. Recognize that TSA has made many good 
moves. But we think there is more that can be done.
    As you mentioned with the long lines and all that, there 
have been some perceived failures. There have been real 
failures, but also a perception that those lines could make it 
difficult to travel. We have done some research that shows that 
Americans would make two or three more trips if they felt they 
could get through an airport efficiently.
    But when they think there are big lines, they avoid the 
trip and they make a telephone call. It is not nearly as 
effective, as we know, as face-to-face.
    We know there are many challenges that the TSA has faced 
over the past 5 years. We think a lot of work remains.
    Some of the ideas that we put forward--I would like to work 
15 recommendations. But I would like to focus on just a few of 
those in our report ``Transforming Security at Airports: An 
Update on Progress and the Future of Aviation Security.''
    First is fee diversion, and you mentioned that. It is so 
important. What has basically happened is the fees went up by 
$1.6 million but the decision was made to keep the amount of 
money going to TSA at TSA, and that overflow would go to the 
general fund.
    We are strong believers that that one-third of fees should 
go to TSA and to improve TSA. Congress should stop diverting 
funds and put those fees toward staffing, technology, 
equipment, et cetera.
    The next way is the best way to really ensure this is 
trusted traveler programs. We all know that PreCheck and the 
Global Entry Program are very effective. But when it comes to 
those programs, I talk about the four P's.
    One is the process. We have got to get the ability to sign 
people up efficiently. I don't think we need to have two forms 
of ID. I can get on any plane, any airport, with one form of 
ID. We can do things like that to get people signed up.
    Promotion. If 10 million people signed up, it would be $850 
million. In the private sector, if we had an opportunity to get 
these people signed up, we would put money toward promoting it 
and getting people to sign up.
    We would also look at price. When you look at price, if it 
is $85, to a businessman, that is not much. But if you take a 
company that signs up several thousand people, we should figure 
out a way to get a volume discount.
    For a family of 4, that is $340. So we should think about 
what we can do. Making it a priority is very important.
    Next area I want to focus on is innovative technology. We 
have got to not just talk about technology, but we have got to 
put it in place and spend the money to do so.
    Last place is empower the airports and the private sector 
to really help in SPP, which is basically the Secure 
Partnership Program, to really help bring more innovative 
ideas, better security. We are extremely interested in this.
    This committee is doing extraordinarily important work. As 
I say once again, without security there is no travel. Thank 
you.
    [The prepared statement of Mr. Dow follows:]
                    Prepared Statement of Roger Dow
                            February 2, 2017
    Chairman Katko, Ranking Member Rice, and Members of the 
subcommittee, I am pleased to offer testimony on behalf of the U.S. 
Travel Association (U.S. Travel), the National non-profit organization 
representing all sectors of America's travel community. I've testified 
numerous times over the years on the Transportation Security 
Administration (TSA) and ideas the travel community has on improving 
this vital security and facilitation part of the Department of Homeland 
Security (DHS).
    The U.S. Travel Association has been driving the National 
discussion regarding aviation safety and travel security for more than 
a decade. Our advocacy is rooted in the belief that greater security 
and increased travel are mutually compatible goals. Based on this view, 
we commissioned a report 5 years ago offering recommendations for the 
TSA. Late last year, we issued an update of that report, and were 
pleased to have Chairman Katko and Subcommittee Member Keating 
participate in the roll-out of that report at a Roll Call event in 
November.
    Despite some challenges, TSA has improved its performance over the 
last 5 years, providing greater convenience to travelers while ensuring 
a high level of safety and security across the system. In particular, 
the TSA PreCheck trusted traveler program has been a major breakthrough 
in improving the travel experience. The leadership of the last two TSA 
administrators--John Pistole and Peter Neffenger--has been critical to 
the growth of this very popular and effective program. I'm pleased to 
report that our relationships with these two former administrators in 
particular was of tremendous benefit to the travelling public, and we 
look forward to similarly strong dealings with the Trump 
administration's nominee for TSA once that is decided.
    But no matter who the next nominee for TSA head is, he or she will 
find that much work remains. As we've looked back at our policy 
recommendations over the years, we've seen that some of the ideas our 
organization put forward in 2011 still need to be implemented fully; 
for others, work has not yet begun.
    For example, we continue to believe that funds raised from TSA fees 
should be used to improve transportation security, not be diverted to 
general revenues. The Screening Partnership Program (SPP) has not yet 
brought broad-based efficiency improvements and innovation to enough 
checkpoints across the country. And we have not yet harnessed the 
technology innovation of our country's leading security companies to 
bring a better checkpoint experience to all travelers.
    But the best opportunity to ensure security and get travelers 
through lines quickly is presented by effective trusted traveler 
programs such as TSA PreCheck. Efforts to continue that program's 
expansion--for which you, Chairman Katko, have been such an effective 
proponent--should focus on Four Ps: Process, promotion, price, and 
prioritization.
    We look forward to working with this committee, others in Congress, 
the new leadership team at TSA and DHS, our colleagues in the travel 
industry, and the traveling public to continue improving TSA so that it 
delivers what we all deserve--the highest possible levels of security 
and expanded travel facilitation.
                               background
    In 2011, the U.S. Travel Association concluded a year-long expert-
led project to formulate recommendations for travel-enhancing changes 
to the goals and performance of the TSA. Led by former Department of 
Homeland Security Secretary Tom Ridge, Congressman Jim Turner, Sabre 
CEO Sam Gilliland, and American Airlines CEO Robert Crandall, this 
blue-ribbon panel issued a groundbreaking report, ``A Better Way,'' 
which made 14 recommendations for reforming TSA, based on the 
experience of security professionals, input from industry stakeholders, 
advice from privacy advocates, and surveys of travelers.
    Six years later, we now urge the new administration and the new 
Congress to place a renewed focus on refining and enhancing the 
operations of the TSA. Its mission to detect and deter security threats 
to the busiest aviation system in the world while facilitating the 
travel of nearly 750 million fliers per year is a complex, expensive, 
and extremely important undertaking. However, an effective TSA is 
crucial not only to our National security, but also to the U.S. 
economy. U.S. Travel surveys have demonstrated that the public travels 
less when the system is bogged down by excessive or unpredictable wait 
times, or TSA dysfunction and chaos. These real or perceived failures 
impose an immense cost on the American economy. Research found that 
travelers would take between two and three more trips per year if TSA 
hassles could be reduced without compromising security effectiveness--
and these additional trips would add $85 billion in spending and 
888,000 more jobs to our economy.
    Unfortunately, the past 6 years for the TSA have been the most 
tumultuous political and budgetary environment in recent history, 
forcing the agency to regularly navigate a series of fiscal crises amid 
its usual operational challenges. Notably, the TSA suffered a major 
budgetary setback when the Murray-Ryan 2013 budget deal became law. 
This law mandated that TSA fee increases be diverted to the General 
Fund as part of a deficit reduction package, which U.S. Travel opposed. 
These fees should have been appropriately reinvested into enhancing 
security measures and creating a first-class travel experience. In 
addition, despite many efforts by this subcommittee, Congress has 
failed to reauthorize TSA since its original creation. This void 
creates confusion and dysfunction, because numerous Congressional 
committees have oversight of TSA and often provide inconsistent 
recommendations on how to balance security, privacy, and facilitation.
    The need to continually focus on TSA improvements was made obvious 
to all during the spring and early summer of 2016. Unacceptably long 
lines were commonplace at too many TSA checkpoints due to a combination 
of more travelers, reductions in TSA screening staff numbers, and the 
return of many travelers to the regular screening lanes after the 
sudden end of the arbitrary ``managed inclusion'' practice from the 
early days of TSA PreCheck. These lines were alleviated only through an 
emergency real location of funds, along with significant efforts by 
airlines and airports to assume non-essential tasks from TSA and invest 
private-sector funds into many checkpoints. The crisis demonstrated, 
however, that more structural changes are needed to help TSA succeed in 
its mission of strengthening security and facilitating travel.
    As we look at the beginning of a new Congressional session and the 
dawn of a new administration, U.S. Travel is pleased to offer policy 
recommendations on some of the most pressing issues facing our aviation 
security system, suggesting a new series of reforms that would further 
improve air travel in America, protect traveler privacy and dignity, 
and give the American people the best return on their investment of 
traveler fees and Government dollars.
                            recommendations
Redirect Airline Passenger Fees to Cover the Cost of and Improve TSA 
        Screening Operations
    The 2013 budget deal (known as ``Murray-Ryan'') increased TSA fees 
from $2.50 per segment to $5.60, but used the increased Federal revenue 
as a general revenue measure, failing to provide the funds to TSA. Thus 
more than one-third of all airline passenger fees collected are being 
diverted from TSA aviation security screening to the General Fund until 
fiscal year 2025. As a result, travelers are paying considerably more 
in user fees but are not receiving the benefits of their fees in terms 
of better TSA performance, shorter lines, or better-trained screeners.
    This provision was included in the budget deal as one of many 
measures designed to meet revenue targets and avert additional worry 
about a Government shutdown or debt limit crisis. Changes to TSA ticket 
taxes had been proposed numerous times by the Bush and Obama 
administrations but were always rejected by Congress as an 
inappropriate additional tax on travelers. During this budget 
negotiation, however, the breadth of the budget package made it 
possible for negotiators to not only include ticket tax increases, but 
also to use the additional revenue as an offset for spending outside of 
DHS or TSA. Over the objection of the travel and aviation industries, 
the provision became law in early 2014, and became effective in July 
2014.
    Comparing 2013 to 2015, travelers paid $1.6 billion more in fees--
$3.5 billion vs. $1.9 billion--for the exact same service. This 
diversion essentially requires travelers to fund aspects of Government 
completely unrelated to TSA's mission--anything from military bands to 
education funding to flood control.
    While we recognize the emergency nature of the Murray-Ryan deficit 
reduction package, Congress must reverse the on-going diversion. 
Revenue raised from aviation security fees should go toward securing 
travelers, not to deficit reduction. We support solutions to repeal the 
current requirement that a portion of aviation security service fees be 
credited as offsetting receipts and deposited into the General Fund of 
the Treasury. More broadly, we encourage Congress to ensure that 
security funding is used to improve all aspects of aviation security 
including, but not limited to, staffing, developing technologies and 
checkpoint and airport facility enhancements.
Improve and Expand the TSA Pre-Check Trusted Traveler Program
    As urged in our 2011 report, TSA has implemented TSA PreCheck, a 
voluntary, Government-run trusted traveler program that utilizes a 
risk-based approach to checkpoint screening. The goal of TSA PreCheck 
is to refocus resources on the higher-risk passengers and expedite 
screening of low-risk, pre-vetted travelers. This program is one of the 
most popular programs across all of Government, and one of the most 
celebrated initiatives ever launched by the Department of Homeland 
Security (DHS).
    The current TSA PreCheck program allows travelers to apply for 
program participation and, if eligible, receive expedited screening 
through designated lanes at participating airports. Individuals who 
apply pay $85 to receive the expedited screening benefit for 5 years. 
As part of the application, individuals have a fingerprint-based 
background check conducted by the FBI. As of early 2017, more than 4 
million travelers are enrolled in TSA PreCheck and more than 3.7 
million are enrolled in the U.S. Customs and Border Protection's (CBP) 
Global Entry program, which also provides participants with PreCheck 
benefits. TSA is working on providing additional enrollment mechanisms 
and more fully integrating these marketing and enrollment mechanisms 
for all trusted travel programs--not just TSA PreCheck.
    The program, while generally successful, needs important reforms to 
increase participation, particularly making enrollment more convenient 
without sacrificing security.
            Reduce the Cost of TSA PreCheck for Families and Corporate 
                    Groups
    Currently, the Office of Management and Budget (OMB) has required 
TSA to charge a standard enrollment fee (currently $85 for 5 years) for 
all TSA PreCheck applicants. This one-size-fits-all approach has 
hindered efforts to enroll large classes of individuals that would 
benefit TSA and more than pay for the cost of their enrollment. Thus, a 
parent who is handling enrollment for 3 young children is treated the 
same as 4 distinct enrollments. A corporate travel manager who is 
handling enrollment for perhaps thousands of employees pays the same 
fee per employee, ignoring obvious economies of scale.
    For families, the math is important. While younger children (12 and 
under) are allowed to join a parent in the TSA PreCheck lane, older 
children cannot. The one-time cost of enrolling a family of 5 may be a 
significant factor for many families and deter enrollment. We encourage 
TSA and its partners at OMB to reconsider fee rules for children, offer 
volume discounts, and explore a subscription model for fees that would 
be paid on an annual basis, not 5 years at a time.
    In terms of companies, Microsoft last year announced it would 
reimburse employees for both TSA PreCheck and Global Entry. The company 
hosted a mobile enrollment event for 800 employees as a first step to 
potentially enrolling up to 5,000 employees. This decision came after 
then-DHS Secretary Jeh Johnson and then-Commerce Secretary Penny 
Pritzker wrote to 100 large U.S. companies requesting assistance in 
marketing and promoting TSA PreCheck.
    The fact that more companies have not followed Microsoft's lead may 
be because the up-front cost of an $85 enrollment fee, multiplied by 
hundreds or thousands of employees, is a measurable and significant 
cost, with harder-to-measure returns. Providing quantity discounts to 
corporate travel managers, especially those who supply applicants to 
TSA for on-site enrollment, may create more corporate interest. Annual 
payment plans would also spread the cost out and ease concerns for 
cost-conscious managers.
            Offer Vetted Populations for TSA PreCheck Expansion
    Various proposals have been suggested to allow those individuals 
who have passed a security review automatic access to TSA PreCheck, 
including security clearance holders and Transportation Worker 
Identification Credential (TWIC) card-holders. Millions of Americans 
have gone through elaborate and regularly recurring background checks 
deemed sufficient to provide them access to Classified information, 
weapon systems, or sensitive transportation facilities and conveyances. 
However, other than expansion to active military members, TSA has been 
very slow to leverage Government security reviews for its own purposes. 
As one particularly egregious example, an airport worker allowed access 
to secure areas of an airport and aircraft in the morning is not 
entitled to use the TSA PreCheck line if he or she is flying out of the 
same airport later in the day.
    We recognize that issuance of a clearance does not mean an 
individual poses no risk. However, many of the categories listed above 
go through a more elaborate background check than TSA PreCheck 
requires. In an era where we expect that Government will coordinate 
programs and not allow information to exist in silos, TSA should make 
prompt decisions about expansion of the TSA PreCheck program to these 
or other applicable populations.
            Leverage REAL ID Compliance for TSA PreCheck Enrollment
    The two-document requirement for TSA PreCheck applications is a 
major deterrent to travelers who would otherwise start an enrollment 
application spur-of-the-moment (i.e., with time to spend in an 
airport). Currently, individuals who want to apply for TSA PreCheck, 
but who do not have a passport (or one of six other forms of identity/
citizenship) must instead present two forms of identity documents--
generally, an unexpired driver's license and a U.S. birth certificate. 
These identification requirements were set by law, and have not changed 
over time. Obviously, most individuals rarely carry around their birth 
certificates or passports, and thus, spontaneous enrollment in TSA 
PreCheck is unlikely.
    In 2005, Congress passed, and the President signed the REAL ID Act, 
which set new security requirements for driver's licenses. After 
numerous delays, implementation of the law will occur in two phases, 
with one phase beginning in January 2018, and the second phase in 
October 2020. During the first phase, individuals who want to board a 
commercial aircraft will have to show a REAL ID-compliant credential at 
the TSA security checkpoint.
    REAL ID documents are secure under Federal standards and will 
become more commonplace over the next couple of years. Since the two-
document requirement unnecessarily burdens individuals who want to 
spontaneously apply for the program, we recommend that Congress direct 
DHS to allow an applicant with a REAL ID-compliant driver's license to 
fulfill the document requirement with that form of identification 
alone.
            Clarify the Role of Third-Party Vendors
    Currently, TSA PreCheck facilitates the movement of travelers 
through designated lanes at airports. Additionally, CLEAR, a company 
that uses biometric scanning technology to help customers speed through 
security by using fingerprints and iris images to confirm identity, 
operates at a limited number of airports. CLEAR lanes are available at 
16 airports, and speed the movement of the program's members through 
security checkpoints. CLEAR members who have TSA PreCheck simply verify 
their identity at a CLEAR lane and are then taken to the designated TSA 
PreCheck lane to be physically inspected.
    In the near future, we may see additional number of third-party 
prescreening vendors providing TSA PreCheck enrollment services to TSA. 
With the proliferation of travel facilitation products in the 
marketplace, it is important that the roles of each vendor, the 
benefits of their products and the regulatory structure they operate 
under are clearly understood by the public, airports, and airlines. 
While enlisting third-party prescreening companies to sign individuals 
up for the program has not worked out as an approach to date, TSA 
should find ways to make enrollment more convenient and more accessible 
for passengers. As the agency's Unified Enrollment contract (which TSA 
uses for its PreCheck enrollment) expires later this year, TSA should 
look for ways to improve our 4 Ps of PreCheck improvement: Process, 
promotion, price, and prioritization.
Empower Airports and the Private Sector to Innovate and Improve 
        Security
    The years-long political fight over allowing airports the option to 
utilize privatized airport screening under TSA supervision has been a 
disappointing development. While the current TSA Security Partnership 
Program (SPP) has proven popular among the limited number of airports 
that participate, TSA has made it very difficult for airports to make a 
business case for shifting into the SPP. As we wrote in our original 
TSA report in 2011, current law provides only limited flexibility for 
airports to utilize different methods of screening passengers and 
bags--therefore, the variations between ``Federal'' and ``privatized'' 
screening workforces are not sufficient to merit consideration of 
another option.
    Congress should overhaul the SPP so that it becomes a viable, 
flexible, and innovative option for helping airports deploy more 
efficient, effective security solutions tailored to their specific 
requirements. We believe that the legal authorities regulating the SPP 
should be amended to provide airports with greater flexibility to 
propose alternate screening programs and vendors to TSA for their 
review and approval. This could include different approaches to 
equipment procurement, checkpoint configuration, workforce scheduling, 
use of canines, and other screening requirements. In addition, TSA must 
be much more willing to work with interested airports on their SPP 
options, focusing more on oversight of security effectiveness than on 
micromanaging airport decisionmaking about security workforces. TSA 
should set the security requirements and allow airports to meet them in 
the way they deem appropriate for their particular environment. In this 
model, TSA would also be responsible for auditing performance against 
those requirements.
Annually Test Vulnerabilities and Weaknesses to Improve Perimeter 
        Security of U.S. Airports.
    In May 2016, the U.S. Government Accountability Office (GAO) 
recommended that TSA update the risk assessment of airport security to 
reflect changes to its risk environment and share results of this risk 
assessment with stakeholders on an ongoing basis. According to the 
report, since 2009, TSA has conducted perimeter security assessments at 
only 19 percent of commercial airports.
    The risk to aircraft does not solely come from passengers. Security 
experts have been increasingly worried about insider and perimeter 
threats, especially in light of the recent shooting at Fort Lauderdale 
International Airport and attacks at foreign airports. The 2016 GAO 
report notes that while TSA has made some progress in assessing airport 
perimeter and access control security risks, including developing its 
own Comprehensive Risk Assessment of Perimeter and Access Control 
Security in 2013, it has not updated this 2013 assessment to reflect 
the current potential for insider threats. TSA needs to update this 
risk assessment to better focus limited resources on the most severe 
risks to airport security. TSA's Joint Vulnerability Assessment (JVA) 
process, which it conducts with the FBI, has only been conducted at 81 
(about 19 percent) of the 437 commercial airports in the United States 
due to resource constraints.
    GAO recommended, and we concur, that TSA should develop and 
implement a method for conducting a system-wide assessment of airport 
vulnerability that will provide a more comprehensive understanding of 
security vulnerabilities in airport perimeter and access control. 
Perimeter security assessment at only 19 percent of commercial airports 
is not acceptable. While we recognize that resources are not unlimited, 
we do not believe constraining this program is in the best interest of 
National security, the airports or the traveling public.
Improve Preparation of Travelers and Encourage Wider Use of Secure ID 
        Documents
    While the public's general understanding of how TSA checkpoints 
work has improved, TSA officers still encounter far too many travelers 
who attempt to bring inappropriate and disallowed items through the 
checkpoint, or are confused by the rules for removing their personal 
items. For example, in 2015, TSA detected more than 2,600 firearms at 
airport checkpoints, and the amount of firearm detections continues to 
escalate. TSA typically releases ``travel tips'' around busy travel 
periods such as holidays and spring breaks, noting that travelers who 
fail to properly follow standards for liquids and weapons ``cause 
delays for themselves and everyone behind them.'' Travel industry 
stakeholders should work with TSA to improve its education and 
communication efforts about security rules and regulations, targeting 
locations and sources that travelers are likely to review as they book 
or prepare for their trip.
    The reduction in use of the ``managed inclusion'' program means 
that travelers either clear checkpoints under TSA PreCheck rules if 
they are enrolled, or under the rules for the general public--no 
exceptions. While airlines and travel agencies normally provide TSA-
related guidance somewhere on their websites, giving specific TSA 
screening instructions during the flight check-in process would be more 
useful to travelers. There is no reason for travelers to arrive at a 
TSA checkpoint unclear of what to do with their electronics, belts, 
jackets, shoes, and liquids as they go through security. Additionally, 
families should be able to know in advance how the checkpoint will 
handle a mixture of adults and children.
    Meanwhile, the percentage of Americans traveling with secure travel 
documents continues to climb thanks to record issuance of passports, 
increased REAL ID compliance, and growth in trusted traveler programs. 
However, the current standoff between non-compliant States and DHS over 
the agency's planned enforcement of REAL ID document standards 
potentially means that tens of millions of Americans will not be 
allowed to use their State-issued driver's licenses as a primary form 
of identity at airport checkpoints beginning in 2018.
    As of early 2017, only 25 States and the District of Columbia were 
fully compliant with REAL ID, and several large States have repeatedly 
refused to enact compliance legislation. Education targeting these 
travelers on the new rules has begun late in 2016, far in advance of 
the January 22, 2018 deadline, so that citizens of these States know 
that they may need to obtain alternate identification when traveling. 
More broadly, we urge Federal and State governments to embrace programs 
that build and deploy secure identification documents in order to 
provide the traveling public with higher-quality identity documents 
that meet Government security standards.
Improve the Checkpoint Experience
    We encourage stakeholders to make the TSA process less stressful by 
collaborating on ways to occupy travelers' time and minds with 
interesting content such as informational videos, updates on flights 
and security processing times, and information about eating and 
shopping options after the checkpoint. This recommendation requires a 
partnership at the local level, between TSA and airports and airlines 
servicing the airport. Private-sector players such as theme parks and 
hotels have long recognized that the time waiting in line can be less 
frustrating and more helpful when guests are occupied with interesting 
content while in a queue. We recommend that checkpoints not only 
feature informational videos prepared by DHS about threat levels and 
programs like ``See Something, Say Something,'' but also display 
updates about flight departures, gate changes, and eating and retail 
opportunities after security. Airports may also find value in providing 
information about new flight routes, amenities, transit options, and 
the like.
    The time travelers spend waiting at the checkpoint may also present 
a marketing opportunity for TSA PreCheck. And if TSA PreCheck 
opportunities are available post-checkpoint, they should be advertised 
as well. In short, there is no reason to make the time waiting in a TSA 
line a boring, frustrating process. Providing a traveler with 
information relevant to his or her flight or future travel options will 
make the wait more manageable and take advantage of a captive audience.
Develop a Strategic Technology Planning Capability
    While TSA produces a 5-year technology plan every 2 years, it does 
not use that plan when building budgets or funding deployment of the 
most advanced technology possible. Akin to the Department of Defense, 
TSA's budget submissions should aim to implement multi-year strategic 
planning priorities, particularly related to checkpoint technologies. 
These plans should take advantage of technology advances developed 
elsewhere inside DHS via robust information sharing across agencies and 
offices.
    TSA is implementing a new procurement strategy consistent with 
legislation successfully backed by U.S. Travel. To date, two 5-year 
procurement plans have been developed by the agency, approved by the 
OMB and released to stakeholders. They have included an appropriate 
level of detail on what TSA envisions deploying and when the agency 
plans to do so.
    In 2014, Congress passed, and the President signed H.R. 2719, the 
Transportation Security Acquisition Reform Act. A core part of this 
measure requires the TSA to annually produce a projection of its 
technology needs over the next 5 years. This requirement emerged due to 
years of strained relationships between technology vendors and TSA. 
Vendors complained that TSA's failure to produce a technology roadmap 
made it difficult for companies to create investment plans, while TSA 
argued that its technology needs have changed quickly, and a detailed 
forecast would become outdated too quickly to be useful.
    While the requirement to create a 5-year plan has been helpful in 
enabling all stakeholders to better understand how TSA views 
technology's ability to manage risk, the agency has not built and 
followed acquisition strategies designed to field the technology in the 
plans. As a result, the five-year planning process is just an exercise 
on paper that has meant little in terms of deploying technology in the 
commercial aviation sphere.
    In order to make this a truly effective process that improves 
security and the experience of commercial aviation passengers, TSA 
should, like the Department of Defense, include implementing plans, 
acquisition strategies and sufficient budgets in its 5-year plans. 
Until the link between plans, acquisition, and budget is effectively 
made, this 5-year planning effort will be of little value to TSA or its 
stakeholders.
    Additionally, to be as effective as possible, this plan should draw 
from resources across DHS that are trying to solve security problems 
similar to TSA. The DHS Science and Technology Directorate and Customs 
and Border Protection (CBP) for example, have reviewed inspection and 
detection technologies that should be assessed to determine if they 
might assist TSA as it implements its transportation security mission.
Deploy Modern Staffing Solutions
    Domestic and international travel are key drivers of the U.S. 
economy, supporting over 15 million jobs, $2.1 trillion in economic 
output and $231 billion in wages. It is expected that domestic and 
international travel will continue to increase in 2017. This growth is 
positive for the U.S. economy and job creation as a whole, but these 
increases and persistent funding fluctuations are straining TSA's 
current staffing resources. It is imperative for TSA to continually 
strive to develop and deploy strategies that will optimize its current 
workforce.
    For TSA to most effectively manage its workforce, the agency should 
provide its airport Federal Security Directors (FSD) the ability to 
utilize world-class staffing management tool and technologies, 
including staffing software. It is imperative that staffing and 
technology solutions be managed under the FSD's authority and 
coordinated with the local airport.
    Given these factors, the efficiency of the TSA workforce must be 
constantly evaluated. Staffing airports with the right number of full- 
and part-time workers is a complicated responsibility, taking into 
account leave, vacation, union rules, management of the overtime 
budget, and training. Regardless of whether the TSA has the appropriate 
number of Transportation Security Officers (TSOs) or is understaffed, 
it is imperative that the TSA be able to fully optimize the efficiency 
and effectiveness of its current workforce. This approach will have the 
added benefit of reducing staff turnover, overtime, training costs, and 
traveler complaints.
    To accomplish this goal, the agency should utilize world-class 
staffing management tools and technologies, including staffing software 
that exists in the market today. Deploying available technologies that 
continuously collect and aggregate real-time data from numerous sources 
including airlines, airports, and third-party providers will lead to 
more accurate predictions of staffing needs at airports. This will 
allow for the creation of a strategic short- and long-term staffing 
matrix that will enhance TSA's ability to predict and incorporate the 
complexities of scheduling a large and dynamic workforce.
    Undertaking a technology assessment to identify enhancements and 
close any technology gaps will further the goal of TSA's management at 
the National and local level to remove pressure from the front-line 
workforce, so it can focus on security while creating a scheduling 
system that provides flexibility to local airports. This would help 
keep travelers secure, but also create a memorable customer experience, 
which would be a win for the traveling public and the TSA.
Further Utilize Canine Screening Units
    The National Explosives Detection Canine Team Program (NEDCTP) was 
transferred to TSA in 2002, after its establishment as the Federal 
Aviation Administration's Explosives Detection Canine Program in 1972. 
TSA's NEDCTP utilizes Passenger Screening Canine (PSC) teams to deter 
and detect explosives within airports and other transportation systems 
across the Nation. The agency currently deploys 997 canines, 322 of 
which are led by TSA handlers, with the remaining 675 utilized by local 
law enforcement in transportation environments, including airports. 
Approximately one-half of TSA's 322 teams are already certified, and 10 
teams are operational in passenger screening.
    TSA currently uses two types of canines to support airport security 
operations--the traditional ``approach and sniff'' type (called 
Explosive Detection Canines) and ``vapor wake method'' PSC dogs trained 
specifically for use in the checkpoint area, while also being able to 
perform the more traditional explosive detection missions.
    In a June 2016 hearing before the Senate Homeland Security and 
Governmental Affairs Committee, then-TSA Administrator Peter Neffenger 
emphasized the importance of PSC, noting that the program increases 
efficiency in the passenger screening process, often with greater 
accuracy than conventional methods. As a result, TSA shifted PSC teams 
to the 20 largest airports in the United States, to maximize detection 
capability in an effort to mitigate long wait times outside of secure 
areas.
    TSA has been retraining cargo canines for passenger screening, and 
the remaining multi-modal teams will be trained for passenger screening 
operations in 2017.
    TSA should continue to increase funding for the PSC program to 
bring this capability to a larger number of Category X and Category 1 
airports. At the same time, we encourage TSA to better engage local law 
enforcement so that resolution protocols (i.e., operating procedures 
employed when a PSC detect explosives) can be adopted, which is 
critical to program expansion.
Focus TSA Screening on Bags from International Arrivals Not Screened to 
        TSA Standards
    The requirement that TSA rescreen luggage that has safely arrived 
in the United States on an inbound international flight has long been 
the bane of travelers forced to reclaim, manage, and recheck their bags 
during a flight connection. TSA has agreed to end the rescreening 
requirement for bags arriving from Canada. We recommend that TSA 
negotiate agreements with the United Kingdom and European Union based 
on the Canadian initiative.
    The rescreening issue remains a major problem for inbound flights 
from all other countries in the world. The policy requires TSA and 
airlines to expend immense resources in order to rescreen such checked 
luggage. The policy was predicated on the concept that TSA should only 
recognize screening at a foreign airport if it used the same high 
standards imposed on the U.S. aviation process.
    In 2011, as part of the U.S.-Canadian ``Beyond the Border'' 
initiative, the countries agreed that inbound bags from Canadian 
flights would not need to be rescreened once Canadian airports utilized 
TSA-approved explosive detection equipment. We understand that by the 
end of 2016, all Canadian airports with flights to the United States 
will meet this standard, and TSA will end the rescreening requirement 
for bags associated with connecting flights in the United States.
    In late 2016, the Canadian Air Transport Security Authority 
installed explosive detection systems that fully meet TSA baggage 
screening requirements. The technology will be fully operational by 
mid-2017 at all 8 Canadian preclearance facilities and thus eliminates 
the need for baggage rescreening on connecting U.S. flights.
    While TSA has improved its scrutiny of foreign airport screening, a 
wholesale end to rescreening is not likely. We recommend that TSA 
negotiate agreements with the United Kingdom and European Union based 
on the Canadian initiative. We understand that productive discussions 
on issues such as screening of liquids have been held, but also 
recognize that recent events in Europe require that our mutual 
confidence levels in detection programs be high. This initiative should 
be a top priority as part of broader border and aviation security 
discussions.
    For U.S. Travel, nothing matters more than the safety of our Nation 
and travelers. We appreciate your holding this hearing to explore ways 
to make TSA more efficient and effective both from a security and 
facilitation perspective.
    Again, thank you Chairman Katko, Ranking Member Rice, and all 
Members of the subcommittee for inviting me to testify today. I look 
forward to answering your questions.

    Mr. Katko. Thank you very much. I appreciate your 
testimony. I have many questions to ask you when the time 
comes, but I appreciate that.
    Now, I now recognize Ms. Nina Brooks for her testimony.

STATEMENT OF NINA E. BROOKS, HEAD OF SECURITY, AIRPORTS COUNCIL 
                         INTERNATIONAL

    Ms. Brooks. Thank you. Chairman Katko, Ranking Member 
Watson Coleman, and Members of the subcommittee, I would like 
to thank you for the opportunity to provide a perspective from 
the Airports Council International, the global trade 
representative of the world's airports on the advancements in 
airport security, screening practices, and in particular, the 
Smart Security project.
    Recognizing the challenges of growing passenger numbers, 
continuously evolving security threats and limited resources, 
ACI and our airline partners at the International Air Transport 
Association joined forces in 2013 to define a future for 
passenger and cabin baggage screening where passengers proceed 
through security with minimal inconvenience, where security 
resources that got allocated based on risk, and where airport 
facilities are optimized.
    Today this vision is being widely recognized throughout the 
world by airports, airlines, and regulators. An increasing 
number of airports around the world are implementing measures 
and processes recommended by the Smart Security Program.
    The objectives of the program are threefold. First, to 
deliver strengthened security through a focus on risk, better 
use of existing technologies, and the introduction of advanced 
detection capabilities.
    Second, to increase the operational efficiency of the 
checkpoints, including faster throughputs, better use of 
equipment, reduced cost per passenger, and the best use of 
space and staff.
    Finally, to improve passenger and staff experience through 
a reduction in queues and waiting times, reduce manual 
handling, and better use of technology for less intrusive and 
less time-consuming security screening. Although focused on the 
screening checkpoints, Smart Security also benefits the 
security as an airport as a whole, particularly through the 
reduction in queues and crowds in public areas.
    The Smart Security Program is structured through trial of 
tests and information sharing. Airports, regulators, and 
airlines have worked together to test different technologies 
and processes, and have shared their findings with the project 
team in order to produce a set of best practices or guidance 
material. This, in turn, is shared with the wider community so 
that all can benefit from the experience of participants in the 
project.
    There is no one solution for all airports. Instead, the 
project has identified a number of components that can be 
implemented depending on the regulatory requirements, the 
needs, facilities, and the risk profile of the airports. For 
this reason, there is not one smart checkpoint that can be used 
as an exact model, rather a menu of options that can be 
combined to meet requirements.
    Smart Security has demonstrated significant improvements in 
operational efficiency, passenger satisfaction, and security 
valuing. To give you some examples, some of the components 
deployed include centralized image processing or remote 
screening to enable X-ray machines to be networked and images 
viewed away from the checkpoint location or across lanes.
    Trials have demonstrated significant efficiency 
improvements. Some airports have seen increases in image 
throughput as well as reductions in total passenger processing 
times by an average of 30 seconds per passenger.
    Checkpoint environments and management enhancements include 
greater automation, for example, tray handling systems, 
resource optimization such as parallel divesting, and automated 
checkpoint performance monitoring solutions. Using these, some 
airports have reported a flow increase of up to 20 percent.
    Some airports have implemented a completely new look and 
feel at checkpoints, such as Amsterdam's Schiphol, which is 
designed to provide a calmer, more passenger-friendly 
environment for travelers to divest and then be reunited with 
their possessions. This reimagined checkpoint benefits the 
passenger experience, but also aids the detection of suspicious 
behavior.
    Using full-body scanners for passenger screening is also 
demonstrated to provide effective security while improving the 
passenger experience and reducing the need for full manual 
searches. Airports that have taken part in trials include 
Amsterdam's Schiphol, Dublin, Doha, Melbourne, London Heathrow, 
Gatwick, and Manchester, and many others.
    Many have implemented components--for example, the Canadian 
Air Transport Security Authority has installed new automated 
lanes in Montreal and Calgary. Automated lanes are beginning to 
be deployed here in the United States using many of the same 
principles recommended by Smart Security, such as lane 
automation, parallel divesting, and tray return systems.
    Looking forward, the focus for the coming year will be on 
technology such as computer tomography, advances in stand-off 
trace detection, queue management, passenger tracking, identity 
management, and differentiated screening according to risk.
    Some of the key enablers of Smart Security have been the 
outcome-focused regulation, flexibility in checkpoint design 
and configuration, understanding that not all airports and risk 
profiles are the same, adequate funding for staffing, screening 
technology, and research and development, along with efficient 
processes for testing and evaluation of new technologies.
    In the United States, we have been working with TSA toward 
sharing of information, from the implementation of automated 
screening lanes at Hartsfield Jackson Atlanta International 
Airport, which implement a number of these Smart Security best 
practices. We have also had some very constructive discussions 
with the TSA's Innovation Task Force.
    We believe that there is a great deal of opportunity here 
in the United States to benefit from the lessons learned by 
Smart Security and vice versa, and we look forward to working 
further with TSA and more U.S. airports.
    I would like to thank you for this opportunity to testify, 
and I look forward to your questions.
    [The prepared statement of Ms. Brooks follows:]
                  Prepared Statement of Nina E. Brooks
                            February 2, 2017
    Airports Council International--the global trade representative of 
the world's airports--is pleased to submit this testimony on global 
advancements in airport security screening practices, in particular the 
``Smart Security'' Program.
                  smart security vision and objectives
    Recognizing the challenges of growing passenger numbers, 
continuously evolving threats, and limited resources, ACI and our 
airline partners at the International Air Transport Association joined 
forces in 2013 to define a future for passenger and cabin baggage 
screening where passengers proceed through security with minimal 
inconvenience, where security resources are allocated based on risk, 
and where airport facilities are optimized.
    Today, this vision has been widely recognized throughout the world 
by airports, airlines, and regulators. An increasing number of airports 
around the world are implementing measures and processes recommended by 
the Smart Security program.
    The objectives of the program are three-fold. First, to deliver 
strengthened security through a focus on risk, increased 
unpredictability, better use of existing technologies, and the 
introduction of advanced detection capabilities.
    Second to increase operational efficiency including faster 
throughput, better use of equipment, reduced cost per passenger, and 
best use of space and staff.
    And finally, to improve passenger and staff experience through 
reduction in queues and waiting times, reduced manual handling and 
better use of technology for less intrusive and less time-consuming 
security screening.
    Although focused on the screening checkpoint, Smart Security also 
benefits the security at an airport as a whole, particularly through 
the reduction of large crowds in public areas.
    The Smart Security program is structured through trials, tests, and 
information sharing. Airports, regulators, and airlines have worked 
together to test different technologies and processes and have shared 
their findings with the project team, in order to produce a set of best 
practices or guidance material. This, in turn, is shared with the wider 
community so that all can benefit from the experience of participants 
in the project.
    There is no one solution for all airports. Instead, the project has 
identified a number of ``components'' that can be implemented, 
depending on the regulatory requirement, and the needs, facilities, and 
risk profile of the airport. For this reason there is not one ``Smart 
Checkpoint'' that can be used as an exact model, rather a menu of 
options that can be combined to meet requirements.
    Smart Security has demonstrated significant improvements in 
operational efficiency, passenger satisfaction, and security value.
    Components deployed include Centralized image processing--or remote 
screening--to enable X-ray machines to be networked, and images viewed 
away from the checkpoint location or across lanes. Trials have 
demonstrated significant efficiency improvements, especially when 
combined with other concepts. Most notably, airports have seen 
increases in image throughput and as well as reductions in total 
passenger processing times by an average of 30 seconds per passenger at 
some airports.
    Checkpoint environment and management enhancements include greater 
automation (e.g. tray handling systems), resource optimization (such as 
parallel divesting) and automated checkpoint performance monitoring 
solutions. Some airports have reported a flow increase of up to 20%.
    Some airports have implemented a completely new look and feel at 
checkpoints, such as Amsterdam Schiphol, which is designed to provide a 
calmer, more passenger friendly environment for travelers to divest and 
reunite with their possessions. This reimagined checkpoint benefits the 
passenger experience and aids the detection of suspicious behavior.
    Using full-body scanners as a primary or secondary measure for 
passenger screening also has been demonstrated to provide effective 
security while improving passenger experience and reducing the need for 
full manual searches. Smart Security pilots have demonstrated that an 
airport using a WTMD and a security scanner as a secondary screening 
device can facilitate over 400 passengers per hour per lane.
    Airports that have taken part in trials and research include 
Amsterdam Schiphol, Dublin, Doha, Melbourne, London-Heathrow, Gatwick, 
and Manchester. Many others have implemented components; for example 
the Canadian Air Transport Security Authority has installed new 
automated lanes at Montreal and Calgary, and automated lanes are 
beginning to be deployed here in the United States, using many of the 
same principles recommended by Smart Security such as lane automation, 
parallel divesting stations, and tray return systems.
    Turning to governance, the project is steered by a group of 
international partners made up from regulators, airports, and airlines. 
This means that all interests are taken into account and there is a 
high degree of cooperation between all parties that need to buy-in to a 
trial or implementation. Both TSA and CATSA are members of the steering 
group, along with the U.K. and Dutch governments. The key to success 
has been collaboration and openness, with a view to improving the whole 
aviation security system.
                                results
    Quantifying results has been achieved through proof-of-concept 
implementations in close collaboration with early adopters, and uses a 
set of very specific performance measures to evaluate the impact.
                         security effectiveness
    The threat detection capability and the robustness of a security 
system can be measured through observation, covert testing, security 
officer performance data, and the evolution in the number and type of 
items detected/confiscated, etc. Screening equipment is tested and 
certified against specific threat detection standards. Other key 
performance indicators, such as the deterrence factor, the level of 
adaptability, and the application of an outcome focused risk-based 
framework requires qualitative appraisal by State agencies.
    The key role of measuring security effectiveness is reserved for 
the Government regulators and agencies represented on the Smart 
Security Management Group (SSMG), which currently include the Canadian 
Air Transport Security Authority (CATSA), the U.S. Transportation 
Security Administration (TSA), the New Zealand Aviation Security 
Service, the UK Department for Transport (DfT), and the Dutch National 
Coordinator for Security and Counterterrorism (NCTV). While the project 
team focuses on the operational performance and passenger experience 
implications of Smart Security solutions in the various tests, trials, 
and proof-of-concept implementations, regulators and government 
agencies need to ascertain that these solutions are in line with their 
expected security outcomes.
    However, there are strong qualitative arguments to support the 
notion that the solutions promoted by Smart Security are a step up from 
the conventional security checkpoint that relies on walk-through metal 
detectors (WTMD) and conventional X-ray equipment.
  <bullet> Security scanners address metallic and non-metallic threats 
        in a single process.
  <bullet> Multi-view X-ray equipment, which is increasingly prevalent, 
        provides the operator with more information by showing multiple 
        viewing angles of the same bag or tray. Next generation X-ray 
        systems that are currently in operational testing stage, 
        further improve on this by displaying the image in a 3-
        dimensional projection that can be rotated freely to allow the 
        operator to see around objects; this can be complemented with 
        software capabilities like virtual separation of objects, 
        allowing the operator for instance to virtually ``remove'' a 
        laptop from the image and to inspect the bag and the laptop 
        separately in a 3D view.
  <bullet> Explosive Trace Detection (ETD) further augments explosives 
        detection on passengers and cabin baggage.
  <bullet> Auto Clear (automatic clearance of low-clutter images) and 
        Auto Reject (automatic rejection of high-clutter images) 
        algorithms do not directly add to the threat detection 
        capability of the system, but will allow the officer to 
        dedicate more attention to those images where human 
        intelligence provides added value.
  <bullet> Automated threat detection systems such as Explosive 
        Detection Systems (EDS) will further augment the officers' 
        threat detection capability.
  <bullet> There is general consensus among security experts that the 
        unpredictable approaches that Smart Security promotes would 
        contribute to the deterrence factor.
                         operational efficiency
    This arguably is the area where most progress has been made to 
date. Very significant improvements in operational efficiency have been 
achieved through a combination of the following components:
    Centralized Image Processing (CIP) or remote screening is by far 
the biggest game-changer we have seen in recent years. It allows for 
networking of cabin baggage screening equipment so that the images can 
be reviewed and analyzed by an officer without the need to be 
physically located next to the equipment. This also opens the door for 
further optimization, for instance by assessing images from passenger, 
crew, and staff checkpoints in a single control room, or by 
centralizing across terminals or even across airports in a long-
distance scenario.
    While CIP has the ability to dramatically increase X-ray image 
processing capacity, the benefits will be even more substantial when it 
is combined with optimized lane configuration and automation, starting 
with innovative divest solutions to maximize the in-feed and reduce X-
ray starvation, such as a parallel loading system, which has the added 
benefit of allowing passengers to overtake one another in the process, 
reducing the stress factor as passengers can take their time to unpack 
without holding up the queue.
    An optimized CIP lane will also require further automation, such as 
the use of tray handling systems and an automated diverter to ensure 
that bags/trays that are selected for secondary search are duly 
separated in the process without the need for human intervention. 
Furthermore, these lanes will have to be equipped with secondary 
screening workstations, allowing the secondary search officer to 
precisely identify what caused the bag to be rejected by the remote X-
ray operator.
    It has also been demonstrated that, in most scenarios, security 
scanners can be deployed as primary screening device while keeping pace 
with the optimized CIP lanes; where higher throughput is required or 
where other factors come into play, they can be deployed as a secondary 
screening method.
    The most common way of expressing operational efficiency is by 
measuring sustainable throughput (i.e. with a continuous in-feed, the 
throughput rate that can be sustained for an extended period of time). 
This is typically measured in terms of passengers per hour per lane 
(i.e per X-ray).
    A conventional security lane (typically about 10 to 12 meters long, 
with walk-through metal detector and conventional X-ray equipment), 
will typically reach sustainable throughput of 150 passengers per 
hour--and often much less. A state-of-the-art Smart Security lane 
(typically about 20 meters long, with security scanner, lane 
automation, parallel processing of passengers, and centralized image 
processing) has been demonstrated to achieve sustainable throughput of 
well above 200 passengers per hour where the security scanner is used 
as primary screening measure (e.g. Schiphol), and even in excess of 400 
passengers per hour where the security scanner is used as secondary 
screening measure (e.g. Gatwick). While these lanes come at a higher 
cost (mainly due to equipment cost and staffing requirements), the cost 
per passenger actually remains stable or may even come down, while at 
the same time delivering passenger experience and security 
effectiveness benefits.
    A key element of realizing full operational benefit is for any 
given airport to test different configuration of equipment and staffing 
to find the optimal solution for their environment. For example, by 
varying the time-out value on an X-ray, efficiencies may be gained in 
processing time. Likewise, providing different numbers of divest 
stations may be suitable for different passenger demographics.
                          passenger experience
    It has been demonstrated that Smart Security solutions have a 
beneficial impact on passenger experience. Amsterdam Schiphol Airport, 
implemented all Smart Security wave 1 solutions with special attention 
to the customer service aspect, and was also the first Smart Security 
global showcase. After they went live with their first re-imagined 
security checkpoint in June 2014, passenger satisfaction scores for 
security increased from 61% to 83%\1\.
---------------------------------------------------------------------------
    \1\ Based on ASQ scores for security. ASQ is ACI's Airport Service 
Quality, the leading and globally established benchmarking program 
measuring passengers' satisfaction whilst they are travelling through 
an airport.
---------------------------------------------------------------------------
    Queues and waiting times have consistently been identified by 
passengers as the most frustrating element of the security experience 
(source: IATA Global Passenger Survey). This is where passenger 
experience is closely linked with operational efficiency: As Smart 
Security solutions have been demonstrated to have the potential to 
significantly increase throughput (see below), they provide screening 
authorities at least theoretically with the capacity to process more 
passengers during peak times and thus reduce queues and waiting times--
as demonstrated at Schiphol and other airports.
    Where security screening is privatized (as in many European 
countries) and airports thus have more control over and are directly 
responsible for funding the screening processes and technologies used, 
airports have increasingly reported a link between reduced waiting 
times in security and increased customer spending on airside, further 
strengthening the case for investment in security processes. Where 
security screening is in the hands of a central screening authority (as 
is for instance the case in North America), we see that there is 
significant political pressure to balance cost efficiency with 
passenger experience and reasonable waiting times. In some states 
(United Kingdom for instance), waiting times at security checkpoints 
are regulated and there are steep penalties associated with not meeting 
mandated service levels.
    Intrusiveness of security measures is another key driver of 
passenger dissatisfaction at security checkpoints. This is associated 
with security measures that are inherently uncomfortable, such as full-
body pat-downs. Security scanners and Explosive Trace Detection (ETD), 
which are key components of the first wave of Smart Security solutions, 
offer the possibility to screen passenger effectively for threats while 
minimizing the number of full-body pat-downs. Experience at early 
adopter airports has shown that passengers generally respond very well 
to the current technology--especially now that security scanners better 
respect the privacy of passengers thanks to the anonymized format of 
images and automatic target recognition.
    The need to disrobe (outerwear, shoes, belt) and divest (liquids, 
electronics) is a further element that influences the passenger 
experience. The second wave of Smart Security solutions, currently 
being trialled, including next generation X-ray equipment and computed 
tomography systems that will effectively enable more items such as 
laptops and liquids to be left in passengers' bags during the screening 
process, and other technology innovations such as a new generation of 
shoe scanners and improved security scanner algorithms that will reduce 
the need to disrobe.
    The checkpoint environment also has an important impact, including 
considerations such as noise, light, space, and other design elements. 
A customer service approach to security screening from staff also 
benefits passenger experience.
    A subjective feeling of safety and security, especially in the 
current environment of increased concerns about terrorist activity--
particularly in public areas--is an equally important element of the 
passenger experience. While security measures should be efficient and 
as non-intrusive as possible, they should also be visible and make 
sense to passengers, who will be more comfortable with a robust 
security screening system rather than a lax one.
    Consistency of process, i.e. the overall passenger's perception of 
the process being predictable despite the fact that the screening 
itself may be unpredictable in order to improve security outcomes, will 
help to reduce the level of passenger frustration. This is closely 
related to the preparation process and the need to disrobe and divest--
why does one need to remove shoes and belts in one State or airport but 
not in another, for instance? While this is mainly illustrative of the 
need for the development of commensurate international security 
standards, Smart Security plays a role in demonstrating that effective 
and efficient technology solutions are available that will simplify the 
preparation process by reducing the need to disrobe and divest.
                       business case and funding
    The cost of implementing Smart Security components varies widely 
depending on the combination of features implemented, the cost of 
equipment and staff in a particular country, the competitive market for 
such certified equipment and the configuration required. Although there 
is clearly a capital outlay, the benefits can be significant.
    Increase in throughput will usually come at a cost--i.e. the lane 
may require additional staff, more expensive equipment, and/or more 
space in order to reach these higher throughput rates. Optimal use of 
staffing resources, optimal asset utilization, and optimal use and 
availability of space are factored into the cost case. Cost per 
passenger is therefore the most useful measure; the increase in 
throughput needs to be higher than or equal to the increase in cost 
that is required to achieve it.
    Funding for checkpoints varies widely across the globe, depending 
on whether an airport or a Federal agency is responsible for the 
delivery of security. Generally, passenger security charges or fees are 
used to invest in security improvements including checkpoint upgrade.
    The provision of well-trained, highly-motivated staff is also 
critical to success, and throughput results will not be achieved 
without sufficient staffing. Smart Security enables security 
professionals to focus on detection, and takes away many of the manual 
processes such as physically moving trays back and forth at the 
checkpoint. This frees up resources to enable more officers to work on 
examining X-ray images and facilitating secondary search and passenger 
screening. Models for the provision of security staff vary around the 
world; for example in Europe, the majority of screening services are 
delivered by airport staff or contractors, with strong oversight by the 
regulator. This enables greater freedom for an airport to implement new 
technologies and innovative practices, provided that security outcomes 
are maintained.
                                 uptake
    It is not possible to quantify how many airports have implemented 
``Smart Security'', as there is no one solution that can be categorized 
as such. However, taking an individual component, we estimate that in 
excess of 100 of the world's major airports have implemented some form 
of automated lane so far.
    The project has also delivered close to 30 individual assessments 
at airports, to help airports identify the best smart security 
components for their needs, with an estimated uptake of 45% so far. The 
project will continue to deliver regional workshops in 2017 to 
encourage the implementation of this first phase of innovation.
                              future plans
    Looking forward, the focus for the coming year will be on 
technologies such as computed tomography, advances in stand-off trace 
detection, queue management, passenger tracking, identity management, 
and differentiated screening according to risk. The project is always 
seeking innovative solutions and plans an innovation event to identify 
new ideas.
    For each of the Smart Security components, additional work and 
research continue to be carried out or have been identified to be 
completed in the following areas.
Passenger screening
    The core performance of full-body scanners is improving, and 
technology is rapidly evolving towards to models that have no moving 
parts and are therefore virtually walk-through. Further research in 
passenger screening will continue to focus on finding and developing 
solutions and technologies that will increase throughput and reduce the 
need for divesting.
    In addition, future research should focus on integration with other 
components. For example, the use of biometrics for identity management 
and verification can enable risk-based differentiated screening to be 
applied on a per-passenger basis. This means that passengers identified 
as high-risk might either be directed to a separate screening lane for 
more rigorous measures, or might be coupled with variable algorithms on 
a security scanner to apply different levels of screening within the 
same equipment.
    Another potential area for integration is the inclusion of 
explosive trace detection or other detection methods into security 
scanners to enhance detection capability, improve security 
effectiveness, and reduce passenger touchpoints.
Cabin baggage screening
    Future research will focus on improving the functionality of the 
screening equipment (especially in its capacity to automatically detect 
threats) while keeping the false alarm rate as low as possible. By 
efficiently assisting the X-ray operator's decision in all aspects of 
cabin baggage screening, advanced equipment will allow a further 
increase in security while improving the passenger experience with 
reduced divestment and fewer bags sent to secondary search. Further 
work will also need to be carried out in hardware and software 
decoupling to allow for independent upgrades and easier certification, 
as well as checkpoint solutions tailored to an airport's needs.
    In addition, while Computed Tomography systems are still maturing 
(toward improved belt speed, lower false alarm rate, and better image 
quality), there is a great deal of work to be done in understanding and 
optimizing the way that screening officers will use the equipment.
Alternative detection methods
    With ETD already used in some States as a primary screening measure 
for crew, future work is needed to determine whether the same principle 
could be applied to passengers as part of a risk-based screening 
approach. As explosive detection advances to the extent that stand off 
screening and dynamic adjustment may be possible, further research will 
be required to evaluate how this technology interacts with other 
checkpoint elements for optimal checkpoint design. Operational 
unpredictability will also be assessed.
    Covert unpredictability combined with dynamic lanes will make the 
checkpoint more robust.
    Unpredictability, new screening equipment, and alternative 
detection methods offer the opportunity to move the current 
prescriptive regulations to a more flexible, outcomes-based approach. 
Rather than checkpoint methodology, security outcomes should be the 
focus.
Checkpoint environment
    Future research in this area will focus on evaluating the optimum 
working environment, which will allow security officers to focus on 
their core screening duties and reduce the need for extensive manual 
handling.
    Improvements in the checkpoint environment will always be a work in 
progress as designs adapt to new threats and the associated detection 
technologies.
    These changes in screening technology and the introduction of 
additional elements, such as biometrics and video analytics into the 
passenger journey, will further facilitate the development of enhanced 
automated solutions.
    Future trials may even move away from the conventional screening 
approach, exploring innovative checkpoint configurations. This could 
include physically separating passenger and cabin baggage screening 
processes and reuniting passengers with their belongings at the end of 
the process.
    In addition, research on predictive modeling and optimal staff 
allocation must be conducted to assess any possible benefits relating 
to checkpoint reactivity and adaptability.
Centralized image processing
    Future studies will contribute to understanding the feasibility and 
benefits of more extensive networking, both on an airport and country-
wide level, including networking operations centrally across several 
airports.
    Taking the networking concept even further, some stakeholders are 
now considering whether image assessment for cabin and hold baggage can 
be combined. Further work is needed in this area to develop the 
concept.
Checkpoint management
    Screening equipment is increasingly becoming networked, and 
automated lanes are now being equipped with RFID readers, associating 
the passenger with their tray(s) and removing the need to manually 
identify trays selected for additional scrutiny. A wealth of data is 
therefore becoming available that, through the use of advanced data 
analytics, may give rise to a whole new generation of checkpoint 
management systems that will allow for real-time and even predictive 
decision making and thus achieve even greater operational efficiencies.
Risk-based differentiation
    Risk-based passenger differentiation exists today, most notably 
with TSA's Pre-Check program. To facilitate wider adoption, States will 
likely seek further collaboration and agreement on issues, such as 
mutual recognition and equivalence, standards for risk assessment, 
interaction with existing security arrangements, and flexibility to 
counter emerging threats.
    The ability to measure the effectiveness of risk-based procedures, 
the potential impact of false positives on the traveling public, and 
data protection and privacy are also key elements to be considered.
    Further work will take place on identity management and the ability 
to track and trace passengers and their belongings through the 
checkpoint, providing States with a full end-to-end risk-based 
passenger differentiation model.
                            working with tsa
    Smart Security has a long-standing relationship with TSA, including 
TSA's participation in the Smart Security Management Group. We have 
been working with TSA towards sharing of information from the 
implementation of automated screening lanes at Hartsfield Jackson 
Atlanta International Airport, which employ many of the features of 
Smart Security, and have also had some very constructive discussions 
with the TSA's Innovation Task Force. We believe that there is a great 
deal of opportunity in the United States to benefit from the lessons 
learned by Smart Security and vice versa, and we look forward to 
working further with TSA and more U.S. airports.

    Mr. Katko. Thank you very much. I also look forward to the 
discussion moving forward. I hear you loud and clear, both Mr. 
Dow and Ms. Brooks, about the technological aspects. We have 
been beating that drum since we started on this committee; TSA 
is behind the curve in technology.
    I will just tell you a brief example I had last year. I had 
to go to Ireland for work, and it was a real struggle, of 
course. But, we went through England. The use of biometrics in 
England were stunning.
    You would walk up. You would stand in front of just before 
when they check your passport, and they do a facial recognition 
scan in about 1 second.
    Then when I went to go check into the gate, when I was 
checking in to go on the airplane, you did it again. It matched 
the facial recognition from the person who came in to the 
person who got on the airplane.
    They have technology like this all over the world, and it 
is maddening to me that we don't have it here. So, I am going 
to definitely explore that with you moving forward.
    But of course, all the technology in the world will be 
useless if you don't have the right personnel doing the job. So 
that is why I am looking forward to hearing from Mr. Cox's 
testimony.
    So I now recognize Mr. Cox for his testimony.

 STATEMENT OF J. DAVID COX, SR., NATIONAL PRESIDENT, AMERICAN 
               FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Cox. Mr. Chairman, welcome back. AFGE is so excited to 
have you back as Chair of the subcommittee.
    To Ranking Member Watson Coleman, congratulations on your 
new post.
    Congressman Payne, it is always so good to be with you.
    Mr. Dow and the Chairman's son and all men and women who 
are serving in the military and all veterans, we owe them a 
debt of gratitude for their service to this country.
    I would remind everyone, the 40,000 transportation security 
officers that work for TSA that AFGE proudly represents, over 
31 percent of them are also veterans that have served this 
country and continue to serve this country by keeping all of us 
safe and secure.
    Every Member of Congress travels home to their district. 
They travel back to conduct hearings and to hold votes, and 
they do it safely because of the great work of TSOs. Airline 
pilots and flight attendants travel safely right now all over 
this country because these men and women are protecting us and 
keeping us safe.
    My main message today is that no discussion of the future 
of TSA should ever exclude the voices of the TSO workforce. 
TSOs are the eyes, ears, and hands of TSA at the checkpoints 
and the baggage areas of our Nation's airports.
    They are the most visible of TSAs components and most 
likely to be blamed for perceived failures on the part of the 
agency. They are rarely, if ever, recognized for a job well 
done.
    The best way for Congress and TSA to show its appreciation 
for TSO's contributions to National security would be fair 
treatment on the job.
    Second, we ask that Congress ensure TSOs have the resources 
necessary to carry out the agency's mission, such as 
appropriate and proper equipment.
    Finally, we ask that Congress hold TSA accountable for both 
of these priorities.
    Security screening of passengers and baggage was made a 
direct Federal Government responsibility after a National 
examination of aviation security following 9/11.
    That examination found that fatal security lapses were due, 
in no small part, to the fact that screening contractors 
operated with too little oversight. The screeners they hired 
had little training, or did not understand operating 
procedures, high turnover, and very low pay.
    For 15 years, TSOs have kept America safe from terrorism 
and other risks. They have got the job done and done it very 
effectively. Their record is one that we should all applaud.
    TSO has seized over 3,300 firearms, most of them loaded at 
checkpoints. They defied all projections this past summer with 
long wait lines due to understaffing and made it happen 
throughout this country.
    Yet there are some politicians who believe that we should 
privatize TSA. Make no mistake, privatization through the 
Screening Partnership Program takes us back to pre-9/11 
conditions. The future of TSA lies with civil servant TSOs and 
not private contractors.
    TSOs sign up for their job because they want to serve the 
American public by keeping our air travel safe. In return, they 
have every right to expect fair treatment from their employer, 
the Federal Government.
    TSOs have the workplace policies changed every time there 
is a new administrator, and we have had more than our fair 
share, sir. Each time we go through many changes of all working 
conditions. AFGE recently ratified a new contract with the 
agency. Many of the terms and conditions of employment were 
changed unilaterally, without any input from Congress or from 
the union that represents those employees.
    I certainly believe the one thing that we could do that 
would help TSOs is to grant them Title V rights under the U.S. 
Code. You know, this would prevent discrimination. It would 
give them full collective bargaining rights.
    I would certainly like to salute Senator Schatz, Warren, 
Merkley, and others who have introduced legislation in the 
Senate. It is our understanding that Ranking Member Bennie 
Thompson and Congresswoman Nita Lowey will be introducing 
legislation in the House for Title V rights for TSOs.
    I thank you so much, Mr. Chairman and Ranking Member, for 
having us today and we look forward to taking any questions. It 
is always a pleasure to be with you.
    [The prepared statement of Mr. Cox follows:]
                Prepared Statement of J. David Cox, Sr.
                            February 2, 2017
    Mr. Chairman, Ranking Member Rice, and Members of the subcommittee: 
My name is J. David Cox, Sr., and I am the national president of the 
American Federation of Government Employees, AFL-CIO (AFGE). On behalf 
of the more than 670,000 Federal and District of Columbia workers our 
union represents, including Transportation Security Officers (TSOs) at 
airports across the United States and its territories who are on the 
job ensuring safe air travel for over 2 million passengers each day, I 
thank you for the opportunity to testify today on ``The Future of the 
Transportation Security Administration.''
    Members of Congress who can attend town hall meetings in their 
districts and return to Washington for hearings and votes can thank 
over 40,000 members of the TSO workforce. Hundreds of thousands of 
Americans who visited the Nation's capital for inaugural events 
experienced first-hand the effective and efficient screening performed 
by TSOs. Airline crews--pilots, engineers, and flight attendants--greet 
their loved ones after landing safely each day because TSOs screening 
passengers and baggage prevented acts of aviation terrorism. The 
economies of major tourist destinations from Orlando, Florida to Las 
Vegas, benefit from families who arrive safely for the vacation of a 
lifetime because experienced, committed, and patriotic TSOs and other 
civil servants work to protect the public. The contributions of TSOs to 
the security of our Nation are clear. Those contributions will be 
enhanced when Congress and the Transportation Security Administration 
provide the TSO workforce the basic rights and protections necessary to 
recruit and retain a workforce that is such an integral part of our 
National security framework.
    No discussion of the future of TSA is complete without the voice of 
the TSO workforce. TSOs are the most visible of TSA's components, the 
most likely to be blamed for any perceived failures on the part of the 
agency and the last to receive credit from the public or their employer 
for a job well done. It is necessary for TSA to recognize the TSO 
workforce's contribution to National security by ensuring the fair 
treatment of TSOs on the job, and by ensuring TSOs have the resources 
necessary to carry out the agency's mission and to hold TSA 
accountable. AFGE believes this is the best path forward to provide 
better stewardship of taxpayer funds and enhanced security to address 
ever-changing threats to American aviation.
 the tso workforce is the legacy of the deadliest act of terrorism in 
                           the united states
    The duty of screening passengers and baggage at our Nation's 
airports is based on the National examination of aviation security 
following the terrible events of September 11, 2001. The airline 
industry felt the aftershock of the attacks long after their 
occurrence: Even after airports reopened after 9/11, airlines 
experienced at least a 30% reduction in demand for air travel. A 2002 
Congressional Research Service report entitled ``The Economic Effects 
of 9/11: A Retrospective Assessment'' noted that Congress created the 
Air Transportation Stabilization Board to assist airlines with up to 
$10 billion in loans. The industry suffered significant layoffs. Nearly 
18,000 business were disrupted or destroyed by the 9/11 attacks. The 
Gross City Product of New York City fell by $27.3 billion between the 
fall of 2001 and the end of 2001. Nationally, 462 extended mass layoffs 
affecting nearly 130,000 workers were attributable to the 9/11 attacks. 
Congress extended unemployment compensation benefits an additional 13 
weeks for workers who had exhausted their benefits and for those in 
``high-unemployment States.'' Most important, 2,977 innocent civilians 
and brave first responders lost their lives on that tragic day. America 
resolved to address the lapses in security that contributed to the 
events of 9/11 and to prevent the reoccurrence of another act of mass 
terrorism on American soil.
    Experts quickly recognized one important security lapse on 
September 11. The patchwork of private firms with little oversight 
employing screeners with inconsistent training and no standard 
operating procedures, high turnover, low pay, and paltry benefits left 
a gap in airport security the terrorists could exploit. As noted at the 
time by Senator John McCain (R-AZ) ``the people who now are employed as 
screeners can make more money by going down and working at a concession 
at the same airport.'' A frightened and frustrated public demanded 
thoroughly vetted, highly-trained, professional workforce of civil 
servants. Congress passed the Aviation and Transportation Security Act 
(ATSA), Pub. L. 107-71, with the intention that the new positions of 
TSO have higher wages and benefits than screeners employed by private 
firms to create a well-trained, professional workforce with low 
turnover able to protect the public from those seeking to commit 
terrorist acts.
    I recite these sad facts to remind everyone what is at stake: 
Throughout the world terrorists remained fixated on transportation hubs 
such as airports, bus terminals, and railway stations as a focus for 
mass casualty attacks. The United States has a formula that has kept us 
safe from these types of attacks for over 15 years: Better 
intelligence-gathering methods shared among agencies, deployment of up-
to-date technology, and in the case of commercial aviation, a career 
workforce of well-trained, dedicated TSOs entrusted by the Federal 
Government as the first and best line of defense against aviation 
terrorism at airports in the United States and its territories. It 
continues to be imperative that the duties of airport screening be 
performed by Federal Government employees, and that these employees be 
provided adequate resources to do their jobs. Likewise, Congress must 
pass legislation that ends the shameful practice of treating the 42,000 
members of the TSO workforce as second-class civil servants by granting 
the TSO workforce the same legal protections as other Federal 
employees.
   privatizing screening duties is a gamble the united states cannot 
                                 afford
    Although airports have had the ability to apply for privatization 
of screening since 2004, only 21 out of 435 commercial airports 
currently participate in the Screening Partnership Program (SPP), TSA's 
privatization program. By its nature the SPP circumvents TSA's direct 
responsibility for passenger screening. There is no documentation of 
superiority of private screeners, or that they save taxpayer dollars. 
In 2012 Congress inexplicably tied the hands of the TSA administrator 
by requiring the approval of airport applications to participate in the 
SPP if on its face the application does not compromise security or 
detrimentally effect cost efficiency or screening effectiveness. SPP 
does not ``get rid of TSA'': To the contrary, the only change is that 
TSOs with years of experience are swapped-out for newly-hired screeners 
who are paid less and have fewer benefits, allowing the contractor to 
shift costs to workers. TSA management remains in place under SPP, as 
do TSA's policies and procedures.
    The TSO workforce is a well-known quantity. TSA reports that in 
2016 3,391 firearms were seized at checkpoints at 238 airports. The 
highest number of guns were found by Federal TSOs at Atlanta 
Hartsfield-Jackson International, Dallas/Fort Worth International and 
George Bush Intercontinental Airport. Despite the burden of relentless 
overtime due to short staffing, TSOs defied predictions of a summer of 
long checkpoint lines. In addition to Presidential inaugurations, TSOs 
continued to be called upon to provide the effective, speedy screening 
necessary to maintain free movement of large groups of people at 
National events. TSOs have provided screening for Amtrak and large 
public transportation systems. The diligence and dedication of the TSO 
workforce has coordinated effectively with updated intelligence 
information to prevent another act of transportation terrorism in the 
United States.
    AFGE calls on the Congress to limit the SPP, and require that TSA 
provide the same transparency to private screeners as the TSO 
workforce. AFGE has strongly supported the legislative efforts of 
Homeland Security Committee Ranking Member Bennie Thompson (D-MS) to 
bring much-needed reforms to the SPP. Because screening of passengers 
and baggage at airports reacts to rapidly updated intelligence, TSO 
duties must be recognized as being inherently Governmental and should 
not be subject to privatization under any circumstances.
    In addition to maintaining the TSO workforce, Congress must be 
accountable for providing the resources necessary to provide the level 
of screening demanded by the public. Last summer's checkpoint delays 
were largely caused by TSA's failure to maintain the necessary level of 
staffing. TSA admitted that TSO staffing levels fell from 47,147 full-
time employees in 2013 to 42,525 in 2015. TSA allowed TSO vacancies to 
go unfilled based on faulty staffing projection resulting from expected 
PreCheck enrollments that ever materialized. Congress must not allow 
TSA to ``blow smoke'' about necessary staffing levels. The PreCheck 
program produces a known population of passengers who still require 
some TSO screening. Piloted use of automated bin return systems may 
move passengers through checkpoints faster but they do not impact the 
number of TSOs needed to screen. Congress must provide the oversight 
necessary to hold TSA accountable for adequate staffing to ensure 
security and reduce wait times. Congress continues to divert $1.25 
billion each year from the Security fee to deficit reduction. AFGE 
calls for Security fee funds to be directed to TSA.
 congress must act to end the second-class status of the tso workforce 
         and provide the resources needed to protect the public
    If you have departed from a U.S. commercial airport, flown with 
excitement to greet a new grandchild, traveled by air to follow a 
favorite sports team to a major sporting event such as the World Series 
or the Final Four, or returned to your Congressional district to meet 
with your constituents during the last 15 years, the work of a TSO 
facilitated your safety. The TSO workforce is the eyes, ears, and hands 
of aviation security in the United States. They are part of the reason 
why traveling on a U.S. airline is the safest mode of transportation. 
According to the U.S. Travel Association, almost 4 out of 5 domestic 
trips are taken for leisure purposes, including families with children 
visiting relatives or popular vacation destinations. In 2015, the U.S. 
Travel Association noted that ``U.S. residents logged 459 million trips 
ways from home for business purposes. Until something goes wrong it is 
difficult to recognize the contributions of a group. The work of TSOs 
makes it far more likely that Americans fly safely and we never again 
suffer the horrendous loss of life or economic downturn caused by an 
act of air terrorism. It is very important work.''
    TSOs signed up for the job because they wanted to serve the public 
by keeping travel safe. In return they have every right to expect fair 
treatment from their employer: The Federal Government. Instead TSA 
remains heavily invested in treating the 40,000-plus TSOs like second-
class employees. Not only is this an affront to the entire TSO 
workforce--it is also an affront to all civil servants. Congress should 
never have given TSA the option of whether to provide fundamental 
workplace rights and protections to TSOs. And Congress should never 
have divided the TSA workforce into a group of management ``haves'' 
with statutory rights under title 5 of the U.S. code, and the front-
line TSO ``have nots'' who do not. Ranking Member Bennie Thompson (D-
MS) and Representative Nita Lowey (D-NY) have authored legislation 
granting all TSA employees equal rights under the law during successive 
sessions of Congress. The Rights for Transportation Security Employees 
Act now has a Senate companion, the Strengthening American 
Transportation Security Act introduced by Senator Brian Schatz (D-HI). 
Both bills ensure that TSOs and all other TSA employees have rights and 
protections under title 5, including:
  <bullet> The Family and Medical Leave Act;
  <bullet> The Federal Labor Standards Act;
  <bullet> Employment discrimination protections, including application 
        of the Rehabilitation Act;
  <bullet> Access to the Merit Systems Protection Board to appeal 
        adverse personnel actions;
  <bullet> Fair shift and annual leave bid procedures;
  <bullet> Fair pay under the General Schedule of wages; and
  <bullet> Full collective bargaining rights.
    AFGE has testified before the disproportionately negative impact of 
TSA's policies on women in the TSO workforce. Our female members 
continue to report that they are prohibited from bidding on certain 
lines at the airport or to change positions, shifts, or regular days 
off because TSA has too few women working. This is especially true at 
checkpoints, where the less than 40% of TSOs who are women are required 
to ``patdown'' the over 50% of female passengers. Although employers 
are required to provide breastfeeding rooms to new mothers under the 
Affordable Care Act and Office of Personnel Management guidelines, AFGE 
members report that the rooms provided for TSOs to express breast milk 
at some airports were far from checkpoints, unclean, lacked 
refrigerators, and did not have locks on the doors. These issues were 
only addressed through the activism of local AFGE leadership stood up 
to TSA management.
    The union remains concerned about TSA's lack of commitment to the 
labor-management relationship. A working labor-management relationship 
requires transparency, good faith, and respect. AFGE recently ratified 
a contract with TSA through a process wholly created by TSA that is 
different from any other process in the Federal Government. Despite 
previous agreements and representations, TSA repeatedly sought to 
invoke different negotiating rules, including the date on which the 
contract became effective previously agreed to by both parties. Without 
consulting or notifying the union, TSA unilaterally issued interim 
guidance on outstanding sections of the collective bargaining 
agreement. The interim guidance contains new provisions applicable to 
AFGE and TSA. TSA should have followed the contract provisions of the 
first contract until the issues were settled.
    Most recently, TSA failed to inform AFGE of the active-shooter 
situation at Fort Lauderdale-Hollywood International Airport during 
December 2016. AFGE was forced to contact TSA to confirm that TSOs were 
not among the wounded. TSA also failed to inform AFGE that an 
application for private screeners under SPP was filed for Atlantic City 
International Airport. Previously, the late Robert Ball, who served as 
TSA's Senior Executive for AFGE Relations, would inform AFGE upon the 
filing of an SPP application. TSA has not named a new Senior Executive 
to function in this role. This list only includes recent unilateral 
actions on behalf of TSA inconsistent with previous determinations, 
agreements, or past practice and evidence of why Congress should 
require TSA to follow the same labor-management rules as other Federal 
agencies. Good labor management relations in the Federal sector result 
in a better-functioning workplace and advance of the agency's core 
mission.
    TSOs are in the untenable position of changing workplace policies 
with each new TSA administrator. This level of unaccountable authority 
does nothing to help National security and contributes to the 
continuing turnover in the TSO workforce. I call on the Members of the 
House Homeland Security Committee and the Senate Commerce, Science, and 
Transportation Committee to not only sponsor, but favorably report out 
the Rights for Transportation Security Employees Act and the 
Strengthening American Transportation Security Act.
    Fifteen years after the creation of TSA it us unthinkable that our 
union is still fighting for equality for over 40,000 Federal workers. 
This workforce has not kept us safe because they lack workplace rights 
and protections. They have done so despite the fundamental rights so 
important to the effectiveness of Government work. Let us commit now to 
send to President Trump a bill strengthening aviation security through 
rights for Transportation Security employees.

    Mr. Katko. Thank you, Mr. Cox. You make a very good point. 
You know, the front line folks are rarely recognized at TSA for 
a job that they do it, day in and day out.
    It is a very difficult job to try and find the proverbial 
needle in the haystack every time. It is remarkable that they 
found 3,300 guns last year. It is also deeply troubling that 
they found 3,300 guns.
    But, every day they get up and go to work and they, you 
know, have the pressure of the safety of the traveling public 
in their hands.
    So I definitely want to commend them for their work. I 
thank them for their work. Our job is not only to support them 
but try to make their job as easy as possible.
    It is clear to me, and we will have more discussion about 
this, that the technology is lacking in this country compared 
to the rest of the world. It is kind-of like asking someone to 
go fight a battle with bow and arrows when your adversaries 
have more sophisticated weapons. I mean, we have to give them 
better tools to work with and better working conditions under 
which to work.
    So, that is the tension we have in these days of limited 
budgets. But, finding the efficiencies and finding ways to make 
them better is what we need to do. Again, I applaud them for 
all their efforts and please extend that to them for me.
    I now recognize myself for 5 minutes of questions. I think 
I am going to start with--there is so much to ask you, we may 
do a second round here, if time permits.
    But just quickly, Mr. Dow, you mentioned that the average 
traveler would take two to three more trips a year if the 
experience in traveling was better than it is today. I would 
probably take more trips, too, if the seats were a little bit 
bigger because, being a tall person is brutal, especially when 
someone puts the seat back in front of you. I can't even sit up 
straight, hardly, in those seats.
    But, did you do any sort of a calculation as to what the 
economic impact would be of those two to three more trips per 
year, just ballpark figures that you can get to us?
    Mr. Dow. Ballpark $85 billion.
    Mr. Katko. Billion?
    Mr. Dow. Billion, 888,000 jobs. What we are finding is 
people, when it gets to be an hour flight that might be a 3- or 
4-hour drive, they are driving. That creates another problem, 
puts all the people on the road.
    So there is no question about it. Travelers, anything gets 
in their way impedes them from wanting to travel. So this is so 
critical to get people through efficiently and safely.
    Mr. Katko. Right. I appreciate that.
    Now, moving forward, there does seem to be a virtual 
certainty that the amount of additional travelers per year is 
going to explode in this country and, indeed, around the world.
    I wonder if you could comment for me, based on what your 
projections and your experiences are, whether we are ready for 
it, No. 1, from an infrastructure standpoint, but also from a 
processing standpoint?
    Mr. Dow. We are absolutely not ready for it. Right now, we 
have gone, in the past 5 years, from 55 million international 
travelers, domestic travel, up to 77 million. Domestic 
travelers are going up 3 and 4 percent a year.
    So we are going to get to a point that that 750 million 
travelers is going, definitely, to be a billion travelers. When 
that happens in a short time, we are not ready for it.
    Our airports we don't have the facilities, the screening 
areas, the technology. It will be a mess and it will impede the 
growth of the economy and jobs. So there is no question, and 
that is going to be upon us before we know it. This is not a 
10-year problem. This is a 5-year problem.
    Mr. Katko. What do you see as TSA's greatest hurdles that 
they need to clear in order to make it ready for that 
challenge?
    Mr. Dow. I think the greatest hurdles, as you have heard it 
several times, is to be able to have technology to make sure 
that the TSOs are doing the mission-critical jobs versus 
standing there and watching someone exit the airport that 
someone else could do if they try to go the wrong way. There 
are many jobs that we have got these well-trained people and we 
have got to get them to really utilize their talents and find 
other ways.
    The lady next to me talked about trace things. There are a 
lot of things we can do. But TSA has to get technology, has to 
get efficiency, and has got to get more people in PreCheck. 
Trusted traveler program is critical.
    Mr. Katko. I agree with that, and I think that we have made 
great strides with that but there is much more we need to do. 
In Syracuse, my airport, for example, we put in--they used to 
have to travel to Oswego, New York, 45 minutes away on not a 
very good road, just to go to the Port of Oswego to see the 
Border Patrol to get yourself on a pre-clearance, which is 
insane.
    So, I had them put a kiosk at the airport. They now have 
close to 50 percent of the travelers coming out of Syracuse in 
PreCheck, which is amazing. It has completely changed the 
burden on the TSO officers, I mean the TSA officers, as well as 
the overall enjoyable experience for the public.
    So there is so much more we can do, and I am probably going 
to follow up again with more questions if I have time, here. 
But, I thank you for that and there is so much more we need to 
talk about but technology is key.
    That is why, Ms. Brooks, I would like to ask you some 
questions. The SPP Program, obviously, there are many 
initiatives and what have you but it just seems like when you 
travel internationally, at some of the airports, like Schiphol, 
for example or some of the others, that in Europe, that the 
technology is light-years ahead of ours.
    So, what do you see as the biggest technological drawbacks 
we have here in the United States, that critically need to be 
addressed?
    Ms. Brooks. Well, I think some of the things that we are 
starting to see in the automated lanes are actually making 
great strides toward actually getting greater throughput at the 
checkpoints.
    Mr. Katko. That being the automated lanes, being the----
    Ms. Brooks. The tray return and the----
    Mr. Katko [continuing]. Trails?
    Ms. Brooks. Yes. There is a lot more than can be done with 
that. The tray return is very visible. But there is a lot that 
can be done with actually automating threat detection and 
actually putting some intelligence into the machines 
themselves.
    Then that coupled with--I mentioned, centralized image 
processing. That is networking the checkpoints so that you can 
actually have a continuous flow of images provided to the 
screening officers. We have seen a great deal of efficiency 
gained from that.
    Then actually through networking the checkpoints, you can 
also get a lot of efficiency in terms of understanding the 
throughput and getting some good management information from 
the checkpoints to enable you to better deploy your resources.
    We talked about biometrics a little bit. I think that, for 
the future, is going to be absolutely critical. We talk a lot 
about screening according to risk.
    But if you don't know who the person is that you have got 
in front of you and who you are screening, then you can't do 
that. So I think that is going to be a very, very important 
piece, being able to say that this bag, in this tray, belongs 
to this person.
    I know who this person is, and I know that they are 
supposed to be here, going these checkpoints and traveling 
today. That is the piece that really is missing right now.
    It is being worked on all over the world. I don't think 
anybody has quite cracked that nut yet, but it is something 
that we really need to be working on.
    Mr. Katko. Yes. We have really been on TSA over the last 
couple of years. We have had 18 subcommittee hearings, which 
is, I think, more than anyone in Congress.
    So, we have held TSA to task. We have had all kinds of 
meetings with them. We have had roundtable discussions with 
industry leaders in an attempt to try and drag them out of the 
Stone Age, the proverbial Stone Age as far as the screening 
equipment goes. There is still an awful long way to go.
    But, do you see some glimmers of hope on the horizon with 
changes that have been made recently within TSA?
    Ms. Brooks. Yes. Absolutely. I mean, I think the Innovation 
Task Force that was set up is really looking at some of these 
future technologies and making great progress in some of the 
areas that we are very interested in as well.
    I would really like to see the work of that task force 
continuing and with a lot of engagement with us as well, so 
that we can share experiences and, you know, help by looking 
globally at what everybody is doing and bring all of that 
information together.
    Because, you know, some of the future technologies, 
particularly with things like stand-off screening so that you 
could walk through a checkpoint without having to stop, you 
know, that is really where we want to be.
    And, you know, through the work of airports and regulators 
and organizations like TSA, then, you know, we will be able to 
get there. But we need to push ahead with the R&D and obviously 
that requires money. So, you know, unfortunately, it comes back 
to the bottom line again.
    Mr. Katko. Yes, it does. Well, I appreciate it.
    There is so much more to ask all of you.
    Mr. Cox, I suspect Mrs. Watson Coleman has some questions 
for you that I would have asked anyhow.
    So the Chair now recognizes Ranking Member Mrs. Watson 
Coleman for 5 minutes for questions.
    Mrs. Watson Coleman. Before I engage in my questions, I ask 
that I get an opportunity to make some observations. I really 
appreciated the ones that you made with regard to the testimony 
that was offered. It is----
    Mr. Katko. Absolutely.
    Mrs. Watson Coleman. Thank you. It is really important that 
the three of you were here to give us your perspective. It is 
so important that we make sure that there is efficient and 
effective traveling. It is so important that we contribute to 
the economy with people who want to travel.
    It is so important that we recognize the significance of 
the people on line and recognize that, because things have not 
happened that are bad, don't ignore the problems that exist as 
it relates to them.
    The information with regard to technology and how we stand 
in relation to the rest of the world is really important. I 
think it speaks volumes to a couple of things. TSA needs 
stability.
    It needs the access to the fees that are being diverted for 
other reasons, because that money can be used for purposes of 
improving technology, the newest most innovative technology 
that is evidence-based and works, as well as supporting the 
people, the staff that is charged to doing this.
    So before I engage in my very short questions, I just want 
to ask unanimous consent that Representative Jackson Lee be 
allowed to sit and question the witnesses as well?
    Mr. Katko. Without objection, so ordered.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank you 
for your indulgence.
    So I will start with Mr. Cox, because I don't want to 
disappoint my Chairman. Mr. Cox, in the past, it was common for 
TSOs and TSA to revel in the fact that the agency was able to 
screen a certain amount of travelers within a certain amount of 
time. Following the leaked OIG report in 2015, which brought to 
light a number of TSA security gaps, TSA rightfully rechanneled 
its focus to effective screenings.
    With the steadily increasing volume of travelers and a 
pressure to screen them in a certain amount of time--and I do 
hope that there is an increase in traveling, and I hope that 
this ban that we are trying to get--wrap our brain around right 
now is understood and applied appropriately so it doesn't 
decrease the appropriate travel. How has TSA worked to ensure 
that effective and efficient screening is of the utmost 
importance?
    Mr. Cox. Thank you, Congresswoman. TSA has definitely 
refocused on the training. They were training for quick and 
fast, to the most efficient mannerism to get the passengers 
through. But they realized they needed to be screening for 
quality, that teaching and training folks exactly what to look 
for.
    All of us go through airports and it is pretty amazing. I 
see those screens, and I have no idea what I am looking at. But 
these are trained professionals, a skillful workforce, and 
being able to focus directly on training.
    I commend our previous Administrator Neffenger, for 
spending the time and resources to retrain TSOs and to do that. 
Obviously, that is a hardship, because if a person is in 
training, they are not directly on the job that day.
    One thing I would point out. We are about 5,000 less 
transportation security officers today than we were several 
years ago, so we have less people doing a lot more screening.
    Mrs. Watson Coleman. With that--that was going to be my 
second question. There are about 40,000 now, right?
    Mr. Cox. Correct.
    Mrs. Watson Coleman. You say that is 5,000 less than we 
had----
    Mr. Cox. We had right at 45,000 several, I would say, 3 or 
4 years ago.
    Mrs. Watson Coleman. Given what you have experienced and 
given what Mr. Dow has even expressed in terms of expectations 
of increased traveling, how many TSOs do you feel would be 
needed?
    Mr. Cox. I wouldn't be the best person to ask, but 
certainly that 5,000 that has been lost, I believe, needs to be 
returned. The air traffic is much higher. Technology is 
improving and we applaud, and we want greater technology. Yes, 
the frequent traveler program, all those things come hand-in-
hand.
    But still, yet, we can never get rid of the human element.
    Mrs. Watson Coleman. Yes.
    Mr. Cox. There is a person, even at the frequent traveler 
check lane, that has to be there. The human resources still 
have to exist with all of that.
    Mrs. Watson Coleman. Thank you. I know we have got some 
serious concerns with the fact that TSOs are not covered under 
Title V.
    Mr. Cox. Correct.
    Mrs. Watson Coleman. I know that you recently ratified your 
second collective bargaining agreement with TSA. How is 
negotiating with TSA different from negotiating with other DHS 
agencies that are represented by your union?
    Mr. Cox. TSOs do not have Merit Systems Protection Board 
rights as all other Federal employees and most other agencies. 
There is not the ability to have a negotiated grievance 
procedure to resolve workplace disputes.
    There are very, very limited things that can be negotiated. 
Basically, we spend a lot of time talking about when you can 
wear a jacket and when you cannot wear a jacket, or when you 
can wear shorts or long pants.
    So those are very minimal things, but very important for 
the work. Border Patrol Agents, ICE agents, CIS, all other 
Homeland Security employees, Coast Guard, many of those, have 
Title V protections.
    Mrs. Watson Coleman. It has been noted that TSOs have the 
lowest one--just about the lowest morale in the workforce. I 
would suspect you might align that concern with the fact that 
they don't have the same rights and privileges as other Federal 
employees do?
    Mr. Cox. That is correct. They don't have the same rights 
and privileges, nor are they on the GS pay scale. Their pay is 
less than most other Federal employees, and so it is an 
entirely different employment system.
    Mrs. Watson Coleman. Does that impact the ability to 
recruit enough and to retain enough?
    Mr. Cox. Yes, ma'am. The turnover in TSA is higher than 
many other Government agencies.
    Mrs. Watson Coleman. I am going to have some questions for 
Ms. Brooks and Mr. Dow, and I will do it on the second round. 
So I thank you for your indulgence thus far. Thank you, Mr. 
Chairman. I yield.
    Mr. Katko. Mrs. Watson Coleman, if you just have a few 
minutes of questions we might try and do this in one round, if 
you would like to just go for a few minutes longer?
    Mrs. Watson Coleman. OK. Thank you, thank you.
    Ms. Brooks, as you observed, integrating innovative 
technology into the passenger screening process will help make 
airport security procedures more effective and more efficient.
    What are the biggest challenges to getting the state-of-
the-art technologies into our airports, as compared to the 
procurement processes within the airports around the world? Is 
it the money?
    Ms. Brooks. Well----
    Mrs. Watson Coleman. Is it the lack of planning?
    Ms. Brooks. Well, money does come into it, of course. One 
of the things that I think really needs to be looked at is the 
time it takes for technology to get out of the lab and into the 
airports, the certification processes. There is a lot that can 
be done with that.
    You know, clearly the TSA has to certify equipment, and 
that is absolutely right. But that turnaround time is very 
important for getting things actually out into airports.
    You know, maybe there are opportunities to look at what has 
done in Europe with E-Cat, for example, the certified 
equipment. Maybe to have some kind of recognition that if 
Europe has already certified something, then, you know, maybe 
there is a less rigorous process that can be done here. You 
know, maybe there are some reciprocal arrangement, because that 
really is critical to getting things done.
    Mrs. Watson Coleman. Does the instability of the leadership 
in TSA, whether or not there is indeed an alignment between a 
long-term plan, long-term needs, long-term budgeting, does that 
affect the rolling out of technology that you see in use in 
other airports that is already evidence-based?
    Ms. Brooks. Well, I think probably the shifting emphasis 
between, you know, whether there is research and development or 
something seen as very critical and important and the roll-out 
of new technologies.
    Yes, that probably does have an impact given, you know, one 
administrator to the next may have very different views about 
how fast these things need to happen. We certainly had some 
very good experiences with the previous administrator, Admiral 
Neffenger.
    Mrs. Watson Coleman. Thank you. Do I still have my last 
question?
    Mr. Katko. Sure.
    Mrs. Watson Coleman. OK. Thank you. This is actually for 
Mr. Dow and President Cox. According to media reports, airline 
crews have been caught up in the President's recent travel ban. 
Specifically, airline crew members from 7 countries referenced 
in the Executive Order are now prohibited from entering this 
country, despite having approved U.S. entry visas.
    Some crew members have been detained and carriers have had 
to shift staff away from the U.S. routes to prevent additional 
crew members from being affected. According to the 
International Air Transportation Association, the Executive 
Order was issued without prior coordination, warning, causing 
confusion among both airlines and travelers.
    It also placed additional burdens on airlines to comply 
with unclear requirements to bear implementation costs, and to 
face potential penalties for noncompliance.
    What does the botched rollout of the travel ban executive 
order say about the importance of DHS consulting and 
coordinating with partners like carriers, airports, and travel 
industry, stakeholders and employees, in the development and 
implementation of the security policy?
    I will start with you, Mr. Dow, and I will ask you, Mr. 
Cox, to respond, and then I will say thank you to my Chairman.
    Mr. Dow. Well, we respect and appreciate the President's 
concern for the safety of America.
    That said, we need to find a way to end the confusion and 
the chaos that it has created, and we urge them to get through 
this quickly, these 90 days, because there is a great deal of 
misunderstanding that was caused.
    I think it is very important to have everybody in the loop 
as we work through these things. So we understand and respect 
the need for security, but we also need to make sure that the 
world knows clearly what we are doing.
    Mrs. Watson Coleman. Thank you. Mr. Cox.
    Mr. Cox. I think there has been a great deal of confusion. 
Clearly, AFGE proudly represents the National Border Patrol 
throughout the country.
    The comments and feedback that I have had from those agents 
is, basically, confusion of not knowing exactly what to do at 
airports. That that has sort-of focused resources away, 
particularly from our Southern Border, where we worry strongly 
about drug cartels and those that are into human trafficking, 
and many things that are very, very harmful.
    That, clearly, most people coming into airports have met 
the proper visa requirements and have the proper paperwork. We 
always want to prevent against anyone coming into this country 
to do harm to the American public.
    Mrs. Watson Coleman. Chairman Katko, let me just say that, 
you know, when we think of our safety and security, we think of 
our intelligence community, our FBI, and places of that nature, 
and we wouldn't privatize them. With regard to travelers, I 
think that that is the same level of security we are expecting 
and hoping for.
    While we can use the best technologies in the world, I 
believe that those who take an oath to uphold our Constitution 
and work as employees of our workforce are the ones that should 
be making sure that we are safe and secure at airports. Thank 
you. With that, I appreciate your indulgence.
    Mr. Katko. Thank you, Mrs. Watson Coleman, and I will note, 
as a matter of practice with this committee, the Ranking Member 
will have more flexibility with respect to time moving forward.
    Unfortunately, given the growing list of people doing 
questions here today, we will not be able to grant all of you 
as much flexibility. So, we ask you to stick as close as you 
can to the 5-minute limit as you can.
    The Chair now recognizes Mr. Higgins, the gentleman from 
Louisiana. First, I want to welcome you to Congress, and 
welcome you to this committee. Mr. Higgins, the floor is yours.
    Mr. Higgins. Thank you, Mr. Chairman.
    Question for Mr. Dow. Sir, if we could move to airport 
security overall, I would like to ask you about your opinions 
regarding the vetting and supervision of airport employees that 
have regular access to aircraft, and luggage, and cargo.
    There is a great deal of emphasis being placed upon the 
screening of travelers. Those of us that fly regularly wonder, 
you know, what is it, the level of screening being given to the 
employees that have access to the aircraft that we are 
entering, and to our luggage and cargo that travel as well.
    Overall just give us some feedback, please, on the 
vulnerabilities and weaknesses of perimeters to your security 
at United States airports.
    Mr. Dow. Yes, sir. First of all, we believe that everyone 
who has access to the air transportation system has to be 
properly vetted and screened, and that is back-of-the-house 
employee--that is my hotel talk--back-of-the-airport employees, 
pilots. So everyone has to do that.
    You asked a question, also, on how important it is to--the 
last part of your question? I dropped it. I apologize.
    Mr. Higgins. Just your overall assessment of the 
vulnerabilities or weakness of airport perimeter security.
    Mr. Dow. Yes. I am glad. That is a very important area 
because, as we have seen, the couple of problems that we have 
had around the world----
    Mr. Higgins. Yes, sir.
    Mr. Dow [continuing]. Have been outside the screening area. 
I think it is extremely important that we put measures in 
there, whether it be presence of security, security practices.
    But we have to be careful we don't move TSA out to the 
beginning of the highway getting to the airport, because so 
many airports are so difficult to get through.
    So we have to have systems, people have to know we are 
watching those areas, but perimeter security is important, but 
we do not want to move the checkpoint to the road approaching 
the airport, which would be a total disaster. So it is a high 
priority and we have got to address it.
    Mr. Higgins. Yes, sir. I am wondering what level of 
coordination TSA has with airport police to address these 
matters of safety of the aircraft and the travelers?
    Mr. Dow. Just as the Ranking Member said of having 
everybody involved, I think it is very important that local 
police, airport police, and security, and our Secret Service 
people all work in conjunction to put a net.
    In your State, I have seen a tremendous amount of 
cooperation between the State police, the city police, and in 
New Orleans, which is very important. So I think it is 
important. It can be done. You can get everyone working 
together.
    Mr. Higgins. Thank you, sir. Generally speaking, Nation-
wide, are you seeing that level of cooperation in other States?
    Mr. Dow. It varies. You have seen one airport, you have 
seen one airport. But it is becoming more and more important 
and all our airport directors have it on their radar that we 
need to look not only at the security checkpoint, but 
understand and have a plan in place for perimeter security.
    Mr. Higgins. Thank you, Mr. Dow.
    Ms. Brooks and Mr. Cox, thank you for your testimony.
    Mr. Chairman, I yield the balance of my time.
    Mr. Katko. Thank you.
    The Chair now recognizes the gentleman from New Jersey, Mr. 
Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the Ranking 
Member of the subcommittee. It is really an honor and a 
privilege to have her join this committee that has really done 
great work and worked in a bipartisan manner over the course of 
the time that I have been involved within. So we are looking 
forward to continuing that work.
    Mr. Dow, in your testimony, you discuss implementing 
improvements to the checkpoint experience. In your opinion, 
what are the most effective and pressing adjustments that 
should be made to the PreCheck process, in order to encourage 
greater participation among trusted populations without 
sacrificing the security of all the passengers?
    Mr. Dow. That is a very good question, Mr. Payne. Thank 
you. On the PreCheck process, No. 1, we have got to get more 
people in the program. We have millions of people who have been 
vetted very deeply from a secure standpoint. We should figure 
out how we can get those people in the program.
    The second thing, I can apply for a mortgage and get an 
answer in 40 seconds. We should be able to have people apply 
for PreCheck and get a very quick answer, going through all the 
security processes. If we can do that, that will help.
    I think we have to, as I said earlier, promote more. If I 
owned TSA, I would put a lot of dollars behind promoting and 
getting another $10 million or $15 million in this program and 
that, in turn, would raise over a billion dollars.
    So we need to promote, we need to have a good process, we 
have got to be able to sign people up. It has to be a priority. 
It has not been a big enough priority, whether it be with 
Congress, or a lot of people, to get people in this program. 
You and I are not going to blow up an airport. So bottom line, 
we should figure out how to get more of us in this program.
    Mr. Payne. Thank you, sir.
    Ms. Brooks, what reasons can you give for the lack of 
innovation here, in the States, as opposed to other 
jurisdictions where you have seen this technology implemented?
    You know, we here in America like to pride ourselves of 
being on the cutting edge, and in so many instances I am 
finding that we are lacking in areas. Can you give me some 
context on why you think we are where we are?
    Ms. Brooks. Well, I think the innovation actually isn't 
lacking. It is there. It is happening in the labs. TSA is doing 
a lot of really good work and looking at new technologies.
    Some of the things that we are starting to see rolled out 
now in airports with, for example, in Atlanta, is actually 
getting toward some of that innovation.
    But I think it comes to getting it out there more quickly 
and, again, it comes down to, you know, there has to be 
adequate funding to get that technology tested, certified, and 
rolled out into the airports.
    Mr. Payne. Well, I, you know, I mean, you know, I get 
concerned sometimes about, you know, us trying to reinvent the 
wheel. I mean, if there is something, you know, that is working 
in Heathrow, my pride isn't going to keep me from saying, well, 
hey, how are you doing that? How are you implementing that?
    You know, I just don't understand, you know, the lag time 
in finding technology that is moving us forward and advancing 
and, you know, getting to the airports in a timely manner if it 
is working there.
    Ms. Brooks. I think the collaboration that we have now with 
TSA is critical, and I really hope that, you know, with the new 
administrator going forward that we continue that, because we 
are starting to exchange some very good information with TSA 
and have some very good discussions about the technology, the 
research, the trials, the processes, that are happening, you 
know, both in the United States and in the rest of the world.
    So I think there is a lot we can learn from each other, and 
I really hope that that continues going forward, because we 
have seen a big difference in the last couple of years.
    Mr. Payne. Thank you.
    President Cox, it is good to have you here again. We 
respect the work of the men and women at TSA. The TSOs are 
really on the front line, and we have to make sure that we--
some of us in Congress make sure that the traveling public, and 
people in this country understand the difficult work being on 
the front line every single day that our TSOs are and really 
raise their profile and respect in this country for the work 
that they do. Thirty-three hundred weapons that they found, and 
that is just firearms.
    On January 23, President Trump signed an Executive Order 
initiating a Federal hiring freeze. TSOs are Federal employees. 
Have you received any guidance from the administration on 
whether or not this hiring freeze will effect TSOs?
    Mr. Cox. I have not, sir. It is our understanding that 
there is a hiring freeze for all of Homeland Security at this 
point. I may be wrong with that. It is changed by the moment, 
but it is our understanding there is a hiring freeze for TSA 
and other departments inside of Homeland Security.
    Mr. Payne. Well, I think that some type of correspondence 
should go out to the administration in terms of maybe looking 
at that freeze in this area, making sure that the traveling 
public is safe should not be something that is curtailed. You 
said you are down 5,000 TSOs as it is?
    Mr. Cox. Yes, sir, about 5,000 less than there was just 
several years ago.
    Mr. Payne. OK. Well, then I really think that is something 
that needs to be addressed and hopefully through this committee 
we can do so. With that I yield back.
    Mr. Katko. Thank you, Mr. Payne.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I welcome the new 
Ranking Member and the staff. It is great to be here.
    You know, one of the things that concerns me generally is 
the fact that we are viewing this in the lens of a terrorist 
attack, which we should, and people's safety personally.
    However, there is another target for these attacks and that 
is our economies. It is the economy of an industry. It is the 
economy of the countries that are affected by this.
    So I want to thank Mr. Dow for the dialog that the Chairman 
and I participated in and the close relationship with this 
committee. I think it is very important from an industry 
standpoint you do that.
    President Cox, I have got to tell you, I fly a lot. The 
attitude of the people on the front line that are there is 
extraordinary, their helpfulness. I have really been impressed 
by that. It is a tough job.
    But I have seen definite, you know, high level of helping 
people, even when they are perhaps doing some things that 
common sense would prevail against.
    But I just want to delve into a couple of issues on those 
lines quickly. No. 1, Mr. Dow, Ms. Brooks, you know, enhancing 
PreCheck, we touched on it but how have we come in terms of the 
airlines themselves being helpful?
    I mean, the idea of, for instance, being able to exchange 
maybe some frequent flyer miles in exchange for PreCheck status 
if people want to make that trade-off. Is that something that 
has been explored? How are businesses that have people that 
work for them, are they stepping up more?
    Have you seen a trend to make sure their companies and 
their employees have PreCheck paid for them by the companies? 
What can we do to expand that, you know, to a greater extent 
even?
    Mr. Dow. Well, two things, Mr. Keating, thank you for all 
your engagement in this issue. You have become an expert on 
this so I appreciate it. You mentioned the--I am going to touch 
on you mentioned the economy.
    When September 11 happened, the air travel industry came to 
its knees in 45 minutes. The U.S. economy followed in about 30 
days. The world economy followed in about 2 months. So the link 
between travel and economy is so clear.
    When you ask about TSA PreCheck, we would like to see all 
of those things happen. Some companies have stepped up and will 
pay for their employees. Google, some of the tech companies 
have done that, but we need to get these, the ability to use 
frequent flyer miles.
    There have been some experiments and it has worked. 
Enterprise Rent-a-Car is doing that. We have had----
    Mr. Keating. So that the people can make that trade-off if 
they want.
    Mr. Dow. They can make the trade-off or not. It doesn't 
matter how they get there. As long as we get more people in 
this program it allows more TSO resources to look for the folks 
that we don't know a lot about, and so we have got to make it a 
high priority. We have got----
    Mr. Keating. Yes. There is one other area, and I hate to 
interrupt.
    Mr. Dow. Yes, sir.
    Mr. Keating. There is one other area where they maybe could 
make a trade-off that would help. In my experience and I think 
in anyone that travels, and that is, you know, the extra charge 
for the baggage.
    I see so many, you know, slow-ups as a result of people 
just struggling to get the extra bag on so they are not charged 
with it. Maybe there is something they could do with frequent 
flyer miles and the extra charge for baggage, too, because that 
does slow things down. I think it makes security a little 
harder as well. Just a thought.
    Mr. Dow. I wish someone from the airlines could speak with 
you also on that, so thank you.
    Mr. Keating. Well, thank you.
    Mr. Cox, one thing I am worried about. We are talking about 
the freeze and the freeze will have an effect because they are 
going to lose some good recruits that will give up.
    When people see a freeze and they are already working in a 
tough job like that, they are going to quit and you are going 
to lose some very valuable people along the lines.
    But also, I think training is as important as anything 
else. I have seen it in so many other areas. I have seen it in 
the major cities, you know, with UASI training and those funds, 
how cross-professionalization, training together.
    In airports, with soft targets now more and more being a 
concern, that is what we saw in Istanbul, as we saw in 
Brussels, as we saw in Fort Lauderdale, that training is going 
to be more valuable, training with local police and the people 
that are there for airport security. Do you see a need for 
further funding for that training yourself with your personnel?
    Mr. Cox. Yes, sir. There is clearly a need for more 
training, and I think you have touched on it very nicely. There 
are more people that work in an airport than just the screening 
employees. There are the vendors, the airline employees, the 
passengers. There are lots of personnel in airports. They are 
almost a city unto themselves.
    You have got to have training for all those individuals 
that are working in those facilities every day. To play on some 
things, the Chair, Mr. Dow, and you have said I think we are 
talking infrastructure.
    Infrastructure that would improve the economy because we 
get more people to travel, that we move them through faster, 
all these things that will help our economy.
    I think investing in better equipment, investing in the 
human resources, all of that will do great things for our 
economy. So I am excited to see Congress talk about improving 
the infrastructure.
    Mr. Keating. Yes, I do think, and I have seen some of the 
new technology myself and that is not replacing people's jobs. 
That is being able to shift people----
    Mr. Cox. To other jobs.
    Mr. Keating [continuing]. To other jobs, which are 
important, too. So I yield back. Thank you.
    Mr. Katko. Thank you, Mr. Keating. There being no more 
witnesses, we don't have time for another round because I have 
a hard stop and a short period of time.
    But, let me ask you something which is somewhat 
unconventional, but since we have a few minutes here, is there 
anything that you, any of you three witnesses wanted to say 
that you didn't have an opportunity to say briefly that we 
should have touched on or something? Things that are important 
to note before we conclude?
    Mr. Dow. I think one thing that is important, too, is to 
engage the airports. Many airports are in favor of SPP, some 
are not, and I think it is very important that TSA take a look 
at the main mission of security and keeping us safe.
    Then bringing the technology and the folks from the 
airports, because they can add on facilitation, on equipment, 
on canines. I think we have got to have a better marriage of 
the folks that run the airports and TSA.
    Mr. Katko. Yes, I couldn't agree more with that. No better 
example of that was last summer when some administrative 
glitches within TSA helped contribute greatly to the wait lines 
at airports.
    Once they started talking more with the airlines and the 
airports, those lines were alleviated significantly along with 
working collaboratively with the folks on the front lines. So, 
you are absolutely right in that regard, and I thank you for 
noting that.
    Mr. Keating. Mr. Chairman, can I have unanimous consent for 
one comment?
    Mr. Katko. Absolutely.
    Mr. Keating. Yes, thank you. I just wanted to point out 
that with the help of the committee here we passed in the House 
just this week a bill that will take the GAO study about 
looking at the uniqueness of the design of every airport into 
consideration with our safety plans. So we have moved forward 
as a committee taking some of that advice.
    I am sorry, Mr. Chairman. I yield back.
    Mr. Katko. No, that is an excellent point. No need to 
apologize. I appreciate you making it. Anyone else before we 
conclude?
    Mr. Cox. Mr. Chairman, I have to say this with all honesty. 
I think particularly this subcommittee has a great Chairman, a 
great Ranking Member.
    Mr. Katko. I agree.
    Mr. Cox. I know.
    [Laughter.]
    Mr. Cox. I mean it from the bottom of my heart because you 
work together. You want to find solutions. It is easy to 
constantly identify problems. The American people are looking 
for solutions, employees are looking for solutions.
    Government does lots of good things that helps this country 
operate and helps the private industry operate. So I am excited 
about this Congress and this subcommittee. I will work with you 
and AFGE works with the two of you in any way we can to find 
solutions to help our economy and keep us all safe.
    Mr. Katko. Well, thank you, Mr. Cox. I appreciate the kind 
words. I think they are well-earned by everyone on the 
committee because we do try and dispense with party loyalties 
and to do the right thing to keep the American public safe and 
keep this system humming. Also to make it better.
    That is our job and hopefully it can stand as an example of 
what others in Congress can do when they put down their swords 
and start working together. I think it is important to do that.
    So Ms. Brooks, before we wrap up would you like to say 
anything?
    Ms. Brooks. Yes, just very briefly, thank you. I just 
wanted to underscore Mr. Dow's point that engagement with the 
airports, engagement with other industry parties is absolutely 
critical.
    Where we have seen the best results, and I am not just 
talking technology, but also people, human factors, the 
screening checkpoints, perimeters, insider threat, all of that. 
It works best when there is strong collaboration between the 
industry and the regulators. So that would be probably my key 
message.
    Mr. Katko. Thank you, Ms. Brooks.
    I want to thank all the folks here today. When the 
situation permits itself, as a matter of course going forward 
we will have a little more flexibility in how we conduct the 
hearings like we did today.
    I can't guarantee you it is always going to be like that, 
but I will signal certainly to Mrs. Watson Coleman at the 
outset how we are going to be doing it. But, you know, we have 
a structure we follow but when we can deviate from it from the 
good of the order to, you know, get a more full hearing, we are 
going to do that if we can.
    So, I would like to thank the witnesses for their 
thoughtful testimony. Members of the committee may have some 
additional questions for the witnesses, and we will ask you to 
respond to these in writing.
    Pursuant to committee rule VII(D), the hearing record will 
be open for 10 days. Without objection, the subcommittee stands 
adjourned. Thank you all.
    [Whereupon, at 11:15 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

        Questions from Honorable Brian Fitzpatrick for Roger Dow
    Question 1. Mr. Dow, thanks very much for providing a travel 
community perspective on how we improve TSA. Your positive 
recommendations are quite helpful to me as a new Member of this 
subcommittee, and should give me lots to think about as I work with 
Chairman Katko to improve this critical part of our Nation's security 
system. As I read through your recommendations, it seems that improving 
PreCheck is near the top of your list, with a particular focus on 
addressing pricing--for large groups, for families, for companies who 
want to enroll their employees. Tell me, as you've looked at PreCheck 
how much of an impact do you think the current $85.00 fee has on 
dissuading enrollment?
    Answer. In 2016, U.S. Travel Association conducted a study to 
estimate the number of air travelers who are likely to enroll in the 
TSA PreCheck Program: (1) If the price of enrolling in the TSA PreCheck 
program would be reduced; (2) if the application process would be 
simplified by getting it done completely on-line. To accomplish this 
task, U.S. Travel conducted a survey to investigate the likelihood of 
air travelers to enroll in the program. The survey results were then 
incorporated with U.S. Travel's estimates of total air travelers as 
well as the actual number of enrollment provided by the TSA to 
calculate the total number of potential TSA PreCheck enrollment if TSA 
would reduce the price or if the application process could be 
simplified by getting it done completely on-line.
Key Findings
  <bullet> Of those air travelers who are currently not enrolled in the 
        TSA PreCheck Program and unlikely to enroll the program:
    <bullet> Half thought the cost to enroll in the program is too 
            high.
    <bullet> 18 percent thought the application process is too 
            complicated.
  <bullet> Of those respondents who thought the price is too high:
    <bullet> 12.1 percent are likely to enroll if the price would be 
            $15 lower than the current level ($85);
    <bullet> Of those who are unlikely to enroll if the price is 
            reduced by $15 (or to $70), 10.5 percent said they will 
            likely enroll the program if the cost is further reduced to 
            $60.
  <bullet> Of those who thought the application process is too 
        complicated:
    <bullet> 55 percent would likely to enroll the program if the 
            application process could be simplified by getting it done 
            completely on-line.
  <bullet> Applying the percentage of survey respondents to U.S. 
        Travel's estimate of the number of air travelers not currently 
        enrolled in this program, U.S. Travel calculates that:
    <bullet> About 2 million air travelers are likely to enroll in the 
            TSA PreCheck if the price of enrollment could be reduce to 
            $70 ($15 lower than current $85);
    <bullet> An additional 1.5 million travelers are likely to enroll 
            in PreCheck if the price is lowered from $70 to $60. 
            Overall, about 3.5 million air travelers are likely to 
            enroll in PreCheck program if the price could be reduced 
            from the current $85 to $60.
    <bullet> About 3.2 million air travelers are likely to enroll the 
            PreCheck program if the application process could be 
            simplified by getting it done completely on-line.
Methodology
  <bullet> The U.S. Travel Association TSA PreCheck Survey used TNS' 
        TravelsAmerica survey program (a syndicated on-line tracking 
        study) that provides leisure and business travel information 
        for its clients. The survey respondents were drawn from air 
        travelers (defined as having taken at least one air trip in the 
        past 12 months) within the TravelsAmerica program. TNS 
        completed 1,000 interviews from March 7-10, 2016.
  <bullet> Survey respondents consisted of general population males and 
        females over the age of 18 and representative of gender, 
        geographic division, income, household size, household 
        designation, and market size. The survey has a margin of error 
        of +/-4 percent at 95 percent confidence level.
  <bullet> Because the TNS survey of 1,000 respondents is of a 
        representative sample of U.S. domestic air travelers, the 
        results of the survey can be used to extrapolate to total 
        domestic U.S. air travelers based on standard statistical 
        estimation methods.
  <bullet> The number of total domestic air travelers in the United 
        States is estimated by the U.S. Travel Association, which is 
        considered the leading travel research organization in the 
        country. This number is widely used in research as a benchmark 
        of air travel.
    Question 2a. Mr. Dow, as a former FBI agent, I had the pleasure of 
avoiding security screening at airports. Once I retired from the FBI, I 
got to experience the TSA security process for the first time. That got 
me to thinking about all of the individuals in Government who have 
security clearances, and who, therefore, merit inclusion in the TSA 
program.
    How do you think TSA should treat individuals who have gone through 
a background check as part of their Federal Government job?
    Question 2b. Should they all automatically be included in PreCheck, 
since we know so much about them?
    Answer. Americans who have gone through elaborate and regularly 
recurring background checks deemed sufficient to provide them access to 
Classified information, weapon systems, or sensitive transportation 
facilities and conveyances should be allowed access into the PreCheck 
pool of vetted indivudals. Unfortunately, other than expanding PreCheck 
to active military members, TSA has been very slow to leverage 
Government security reviews for its own purposes.
    As one particularly egregious example, an airport worker allowed 
access to secure areas of an airport and aircraft in the morning is not 
entitled to use the TSA PreCheck line if he or she is flying out of the 
same airport later in the day.
    We do recognize that issuance of a clearance does not mean an 
individual poses no risk. However, many of the categories listed above 
go through a more elaborate background check than TSA PreCheck 
requires. In an era where we expect that Government will coordinate 
programs and not allow information to exist in silos, we believe TSA 
should make prompt decisions about expansion of the TSA PreCheck 
program to these or other applicable populations.
      Question From Honorable Brian Fitzpatrick for Nina E. Brooks
    Question. Ms. Brooks, I understand that in response to long lines 
at airport security checkpoints last summer, TSA, airlines, and 
airports all worked closely together to manage the crowds as best they 
could. As you look back on that experience, what can we learn from it, 
and how can we make sure we are better prepared for this summer travel 
season?
    Answer. The success last summer in keeping wait times to a minimum 
was due to the collaborative, coordinated effort between TSA, airports, 
and airlines. Airports contributed significantly--on a voluntary and 
temporary basis--by providing staff to support non-screening functions. 
This allowed TSA to focus on its core mission of screening passengers 
and baggage.
    Most airports do not have the available funds to provide staff to 
support TSA functions or for needed infrastructure modernization 
projects.
    Even though Congressional approval for TSA to reprogram funds 
allowed the agency to hire 1,368 new Transportation Security Officers 
(TSOs), convert 1,865 TSOs from part-time to full-time and utilize 
additional overtime, TSA was and is understaffed by approximately 4,000 
TSOs.
    Last year, TSA's staffing allocation model demonstrated that 
security checkpoints around the country were understaffed by thousands 
of TSOs. Due to existing staffing shortages, for instance, TSA cannot 
open all the screening lanes at many security checkpoints, including 
PreCheck lanes. With the continual increase in the volume of passengers 
and baggage along with growing security demands, TSA needs more 
resources and screening technology now and in the coming fiscal years.
    In accordance with Section 3302 of the FAA Extension, Safety and 
Security Act of 2016, TSA apparently conducted an assessment of its 
Staffing Allocation Model to determine the necessary number of TSOs at 
all airports.
    In order to ensure TSA is adequately positioned to efficiently and 
effectively screen passengers this coming summer, Congress should 
provide the agency the authorization and funding necessary to support 
the appropriate number of TSOs, technology procurement, deployment, and 
maintenance, and a surge capacity to keep pace with the continued 
growth in passenger traffic.
    To provide the funding for additional TSOs and security technology 
at passenger screening checkpoints, Congress must end the diversion of 
the 9/11 Passenger Security Fee to pay down the National debt. The 9/11 
passenger security fee is supposed to be used for the costs of 
providing civil aviation security services, including the salary, 
benefits, and TSO overtime. However, over a 10-year period $12.6 
billion of the user fee will be syphoned off to subsidize other Federal 
programs. With long lines and wait times at TSA security checkpoints, 
travelers are definitely not getting their money's worth. The entire 9/
11 passenger security fee should be used to provide TSA funding for the 
number of TSOs necessary to provide effective and efficient screening 
of passengers and their baggage.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
